<html>
<title> - ON THIN ICE: THE FUTURE OF THE POLAR BEAR</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]





               ON THIN ICE: THE FUTURE OF THE POLAR BEAR

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                            JANUARY 17, 2008

                               __________

                           Serial No. 110-22


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov







                  U.S. GOVERNMENT PRINTING OFFICE
58-416                   WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr, 
JAY INSLEE, Washington                   Wisconsin
JOHN B. LARSON, Connecticut            Ranking Member
HILDA L. SOLIS, California           JOHN B. SHADEGG, Arizona
STEPHANIE HERSETH SANDLIN,           GREG WALDEN, Oregon
  South Dakota                       CANDICE S. MILLER, Michigan
EMANUEL CLEAVER, Missouri            JOHN SULLIVAN, Oklahoma
JOHN J. HALL, New York               MARSHA BLACKBURN, Tennessee
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                     David Moulton, Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director













                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared Statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Earl Blumenauer, a Representative in Congress from the State 
  of Oregon, opening statement...................................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     6
Hon. Jay R. Inslee, a Representative in Congress from the State 
  of Washington, opening statement...............................     7
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, opening statement..........................     8
Hon. John Larson, a Representative in Congress from the State of 
  Connecticut, opening statement.................................     9
Hon. Emanuel Cleaver II, a Representative in Congress from the 
  State of Missouri, opening statement...........................     9
Hon. John Hall, a Representative in Congress from the State of 
  New York, opening statement....................................     9

                               Witnesses

Mr. H. Dale Hall, Director, Fish and Wildlife Service............    11
    Prepared Statement...........................................    13
Mr. Randall Luthi, Director, Minerals Management Service 
  (Accompanied By Mr. John Goll, Regional Director, Minerals 
  Management Service, Anchorage, Alaska).........................    17
    Prepared Statement...........................................    20
Dr. Steven Amstrup, Polar Bear Team Leader, United States 
  Geological Survey..............................................    28
Ms. Kassie Siegel, Director, Climate, Air and Energy Program, 
  Center for Biological Diversity................................    44
    Prepared Statement...........................................    47
    Answers to Submitted Questions...............................   150
Ms. Deborah Williams, President, Alaska Conservation Solutions...    89
    Prepared Statement...........................................    92
    Answers to Submitted Questions...............................   155
Ms. Jamie Rappaport Clark, Executive Vice President, Defenders of 
  Wildlife.......................................................   131
    Prepared Statement...........................................   134
    Answers to Submitted Questions...............................   164

                          Submitted Materials

International Fund for Animal Welfare Report: On Thin Ice........   169
Hon. Jay R. Inslee et al. letter of June 15, 2006 to Fish and 
  Wildlife Service...............................................   209
Hon. Jay R. Inslee et al. letter of Feb. 16, 2007 to Fish and 
  Wildlife Service...............................................   217
Hon. Jay R. Inslee et al. letter of April 9, 2007 to Fish and 
  Wildlife Service...............................................   221
Hon. Jay R. Inslee et al. letter of June 29, 2007 to the 
  Department of the Interior.....................................   227
Hon. Jay R. Inslee et al. letter of Oct. 22, 2007 to Fish and 
  Wildlife Service...............................................   231
Hon. Jay R. Inslee et al. letter of Jan. 17, 2008 to Fish and 
  Wildlife Service...............................................   238
Hon. Edward J. Markey and Hon. James Sensenbrenner, letter of 
  Jan. 31, 2008 from Jason Patlis, World Wildlife Fund...........   242
Testimony of Margaret Williams, Managing Director, Kamchatka/
  Bering Sea Ecoregion Program, World Wildlife Fund before the 
  Committee on the Environment and Public Works, U.S. Senate, 
  Jan. 30, 2008..................................................   244
Polar Bears at Risk, a WWF Status Report, May 2002...............   264
World Wildlife Fund, Polar Bear Fact Sheet, 2007.................   292

 
               ON THIN ICE: THE FUTURE OF THE POLAR BEAR

                              ----------                              


                       THURSDAY, JANUARY 17, 2008

                   House of Representatives
            Select Committee on Energy Independence
                                         and Global Warming
                                                     Washington, DC
    The committee met, pursuant to call, at 9:30 a.m. in Room 
2175, Rayburn House Office Building, Hon. Edward J. Markey 
[chairman of the committee] presiding.
    Present: Representatives Markey, Blumenauer, Inslee, 
Larson, Cleaver, Hall, Sensenbrenner, Shadegg, Walden and 
Blackburn.
    Staff Present: Morgan Gray and David Moulton.
    The Chairman. This hearing is called to order of the Select 
Committee on Energy Independence and Global Warming.
    The impacts of global warming are often discussed in the 
future tense, but as we will hear today, the Arctic is already 
feeling the strain of the dangerous build-up of heat-trapping 
pollution in our atmosphere. Hardly a week passes without 
another discovery of new and accelerating ways that global 
warming is impacting the Arctic region, global warming's Ground 
Zero.
    In the fall scientists reported that as a result of the 
warming planet, the 2007 summer Arctic sea ice melt was likely 
the greatest of the last century, an astonishing 23 percent 
greater than the previous record set in 2005. A recent study by 
scientists at the National Center for Atmospheric Research 
projected that the Arctic Ocean could be devoid of ice by 2040. 
Furthermore, Dr. J. Zwally, a leading NASA scientist, recently 
reanalyzed sea ice data and projected that the Arctic Ocean 
could be ice-free in summertime as early as 2012, just 4 short 
years from now.
    The presence of Arctic sea ice is essential for many forms 
of animal and plant life, but particularly for the polar bear. 
Polar bears use these ice floes as a platform for nearly every 
aspect of their lives, including hunting their primary food 
source. The disappearance of sea ice as a result of global 
warming is leading to the very real possibility that polar 
bears will disappear as well.
    The Bush administration's own scientists project that the 
prospects for the polar bear's survival are bleak. Last year 
Dr. Steven Amstrup, who is with us today, headed up a team of 
scientists charged with examining the impacts of sea ice loss 
on polar bear populations. In a series of reports released last 
fall, Dr. Amstrup's team concluded that by midcentury two-
thirds of all the world's polar bears could disappear, and that 
polar bears could be gone entirely from Alaska. Dr. Amstrup's 
team also noted that based on recent observations, this dire 
assessment could actually be conservative.
    The actions of the Bush administration in the coming months 
could very well determine the fate of this iconic animal. The 
Interior Department is currently considering whether to list 
the polar bear under the Endangered Species Act as a result of 
the impacts of global warming. Last week the Fish and Wildlife 
Service announced that it was going to delay any decisions to 
beyond its statutorily required deadline, meaning that legal 
protection for the polar bear would be put on ice, while its 
habitat continues to melt. Meanwhile, the Interior Department 
is revving up its regulatory machine to allow new oil drilling 
in sensitive polar bear habitat.
    Earlier this month the Minerals Management Service 
finalized its plans to move forward next month with an oil and 
gas lease sale of nearly 30 million acres in the Chukchi Sea, 
an area that is essential habitat for polar bears in the United 
States. The timing of these two decisions leaves the door open 
for the administration to give Big Oil the rights to this polar 
bear habitat the moment before the protections for the polar 
bear under the Endangered Species Act go into effect.
    Rushing to allow drilling in polar bear habitat before 
protecting the bear would be the epitome of this 
administration's backward energy policy, a policy of drill 
first and ask questions later. In this situation, as in many 
things in life, order matters. You don't put on your shoes 
before your socks. You don't start driving before looking at a 
map. You don't buy a Patriots Super Bowl shirt before the game. 
And we shouldn't be selling the drilling rights in this 
important polar bear habitat before deciding how we are going 
to protect them. It seems that every time there is a choice 
between extraction and extinction in this administration, 
extraction wins. This must not be the case for the polar bear.
    [The prepared statement of Mr. Markey follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    The Chairman. Now I would like to turn and recognize the 
Ranking Member of the select committee, the gentleman from 
Wisconsin, Mr. Sensenbrenner for an opening statement.
    Mr. Sensenbrenner. Well, first of all, Mr. Chairman, what 
Patriot Super Bowl shirt? You are going to be wearing green and 
gold that day.
    Now I will talk about the polar bears.
    The polar bear is a majestic and fascinating creature that 
should be observed, admired and protected, and its habitat is 
declining. The price of crude oil is reaching $100 a barrel. 
The United States needs more and not less access to domestic 
oil and gas reserves. I am afraid that this hearing of a select 
committee charged with examining the nexus of energy 
independence and global warming, the polar bear simply is 
becoming a political tool, and that is a shame.
    There has been some cynical speculation in the media and 
among some others that the polar bear is just a few decades 
from extinction, and the current administration is ready and 
willing to diminish the polar bear's plight in order to help 
the oil and gas industry. I believe nothing could be further 
from the truth. It is my hope that this hearing can help 
address some of these misconceptions.
    Currently the administration is looking at two decisions 
that, while interrelated, are decided under two separate, 
distinct and different laws that support two different policy 
goals: protection of the polar bear and progress on energy and 
security through the development of domestic oil and gas 
reserves.
    For more than a year, the Department of the Interior has 
been studying whether to list the polar bear as a threatened 
species under the Endangered Species Act. This is a complicated 
and nuanced question, but one whose answer must be based 
solely, and I emphasize solely, on the best scientific and 
commercial information about the polar bear.
    If the scientists and wildlife managers at the Interior 
Department determine that the polar bear should be listed as a 
threatened species, then the United States should take all 
required steps under the Endangered Species Act to protect the 
polar bear. I note that regardless of whether the polar bear is 
listed under the Endangered Species Act, it is already 
protected under the Marine Mammal Protection Act.
    The Interior Department's Minerals Management Service has 
also decided to move forward with an oil and gas lease sale in 
Alaska's Chukchi Sea, which is a part of the polar bear's 
habitat. Should the polar bear be listed, then oil and gas 
companies will have to take all appropriate efforts to ensure 
that their exploration and production are done in a manner 
required by the Endangered Species Act. The timing of these 
separate decisions is incidental to protecting the polar bear.
    The hallmark of the Endangered Species Act is that listing 
decisions need to be based solely on sound scientific and 
commercial information and not politics. I worry that today's 
hearing will focus too much on the politics and not enough on 
the science, and that certainly isn't good news for either the 
polar bears or for America's energy security.
    I yield back the balance of my time.
    The Chairman. Great. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon, Mr. 
Blumenauer.
    Mr. Blumenauer. Thank you, Mr. Chairman.
    There is a rare area of complete agreement with my 
distinguished friend from Wisconsin as relates to the Super 
Bowl. I appreciate his elaboration.
    I am very much appreciative of this hearing. I have a 
slight difference of opinion with my good friend from 
Wisconsin, however, in terms of what the significance of this 
is. I don't think it is incidental, and just because they are 
tracking under different laws is no reason that they cannot be 
harmonized.
    Years ago I was involved with an effort that struck a raw 
chord in this country as we were trying to rescue polar bears 
from a circus environment in Puerto Rico where they were being 
abused. It is fascinating to me to watch the outrage and the 
activity that this engendered. People could sort of understand 
that. Now I look back and think of what is happening here 
today, because it is not just an individual circus in Puerto 
Rico, but we are talking about the Federal Government's action 
which actually might endanger and abuse not a handful of circus 
animals, but threaten the existence of polar bears in the wild.
    This administration is dealing with activities that could 
potentially threaten the habitat of this magnificent animal, 
which is a critical part of a spectacular, but fragile 
ecosystem. It is stunning to think that the Federal Government, 
before considering whether or not the polar bear is endangered, 
would encroach upon almost half of its U.S. habitat.
    Now, I personally think that we are smart enough to figure 
out how to harmonize these efforts and make a difference. The 
notion that it is our country that wouldn't take that extra 
step does give me pause. And frankly, the notion that this is 
incidental, I think in the course of the hearing it will be 
clear that it is not. We have an administration that has a 
record of taking small steps and driving forward. In effect, we 
are watching now throughout the Western United States where 
sportsmen are finding that--the consequence of the drill and 
dig and, as you were saying, Mr. Chairman, ask questions later.
    I think there is no excuse for not taking a few additional 
weeks and doing this right. I deeply appreciate your scheduling 
this hearing. The fact that I am not here for all of it is not 
a reflection on its importance, but we have Mr. Bernanke before 
the Budget Committee, and I am obligated to be across the 
street. But I will be with you, I will be following up, and I 
do appreciate it.
    The Chairman. I thank the gentleman very much.
    The Chairman. The Chair recognizes the gentleman from 
Oregon, Mr. Walden.
    Mr. Walden. Mr. Chairman, thank you. I look forward to 
reading the testimony of the witnesses and hearing from them, 
so I will keep my remarks brief. We also have an Energy and Air 
Quality Subcommittee hearing with Chairman Connaughton on his 
testimony in Bali that starts in about 17 minutes, so I will 
have to depart for that as well.
    I know this is a serious issue, and I look forward to 
hearing the scientific evidence involved here. I also know that 
consumers are getting a little tired of $4 gas or $3.15 gas, 
and natural gas is certainly going up in price, the rise of 
fertilizer costs for the farmers I represent and drives 
industry offshore. I want to see America become energy 
independent, but in an environmentally sensitive way. So 
hopefully we can find a balance here that works for the 
country, for the polar bears and for the consumers.
    Thank you, Mr. Chairman.
    The Chairman. I thank the gentleman. Your time has expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Well, this we know: This is the last chance for 
the polar bear. They will never get another chance, and neither 
will we.
    And I was thinking about why people feel so strongly about 
this issue. I was thinking about a woman named Helen Thayer, 
who was the first woman ever to ski alone to the North Pole. 
She was stalked for 2 days by a polar bear; she could have been 
an hors d'oeuvre for a polar bear.
    I was thinking why do we have such admiration, respect and 
love for this species when they at times could make us a snack? 
And I think there is an obvious and an unobvious reason for 
that. The obvious reason is because they are so beautiful and 
magnificent, their ability to turn ultraviolet light into 
thermal energy. They are just beautiful.
    I think there is a deeper reason that Americans feel so 
passionately about that, and that is that they realize that the 
polar bear is the largest canary in the largest coal mine in 
the world, and that it is not just the polar bear at risk from 
this threat of global warming, but we are at risk of the threat 
of global warming.
    When people think--and I think the reason they care so much 
about this is they recognize that you don't cry for the bell 
tolling over the bear; we can ask, why is the bell tolling for 
us, because that is what is happening here. People recognize 
that, that a polar bear without an ice cap is a fisherman 
without a boat, and that is tough on the polar bear; but a 
world without an ice cap is a world without a thermal 
regulator.
    Just hold up this poster here. This shows the sea ice of 
2000, the ice cap in the summer, and at the latest when it will 
disappear and be gone in 2040. And the reason people care so 
much about the polar bear is they realize its demise is 
inextricably related with ours, because this is a thermal 
regulator for the world's climate. And when we lose that ice 
cap, we lose a cap that radiates energy back into the Earth, 
and now the ocean starts to absorb six times more energy than 
the world did in northern climes, which puts us at risk, not 
just the polar bear.
    So I am disturbed that this administration continues on a 
path of willful ignorance and habitual arrogance. It is 
willfully ignorant to go forward with allowing the leasing in 
this area immediately adjacent to the habitat, willfully 
ignoring science, willfully refusing to ask these questions 
before these decisions are made, and habitually being arrogant 
that oil surpasses all other forms of human value. So I hope 
that this hearing will convince the administration to rethink 
its position on this, ask the hard questions, get the 
scientific answers before we take this leap.
    And just on one parting note, and this is kind of how I 
feel about this, if you look over at these kids sitting over 
here, I don't know where they are from, all I know about them 
is that they are beautiful, and they look smart as a tack. And 
what we are doing here today is basically saying when they are 
our age, they will have polar bears around, and they should 
have an ice cap to make sure that their planet doesn't warm up. 
So these kids, I hope you enjoyed today, and I hope this 
administration is thinking about you when they make these 
decisions. Thank you.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentlelady from Tennessee, Mrs. 
Blackburn.
    Mrs. Blackburn. Thank you, Mr. Chairman. I thank you for 
holding the hearing, and I want to thank our witness for taking 
their time to come and be with us today and share their 
information.
    We all know that the Department of the Interior is 
currently considering a plan to list polar bears as a 
threatened species under the Endangered Species Act, and a 
basic question needs to be answered before we take such an 
action, and it is this: Are current polar bear populations 
sustainable, are they even sustainable?
    This committee has called this hearing because some 
scientists think that they have the answers to this question. 
They say that the polar bear population is decreasing, and 
global warming is causing the decline, and that is going to 
lead to their extinction. However, could it be, could it be 
that their conclusions are based on speculative and 
hypothetical conjecture that relies on climate modeling methods 
that have been shown to be statistically inaccurate in 
predicting past and present climate change? Is that a 
possibility for us? To rely on these error-prone models to 
predict the survival of a species 40 or 50 years from now does 
not withstand the most basic scientific scrutiny, so we need to 
think about this one.
    Studies done by the World Wildlife Fund, Canadian 
biologists and American climatologists are in direct 
contradiction to the claims of some of these scientists. These 
studies found that almost all, almost all, of the Arctic 
populations of polar bears are either stable or increasing, and 
that changing wind patterns are the primary causes of changing 
sea ice distributions, not global warming.
    One of the most interesting findings in these studies is 
that data shows polar bear populations are increasing in 
warming areas and declining in cooling areas.
    Mr. Chairman, the most available, incredible information on 
the status of the polar bear population indicates that listing 
the species as threatened could possibly be unwise. It might be 
misguided. Instead I think we need more studies to obtain 
precise and accurate measurements of population trends and 
ecosystem factors. The data could then be used to determine 
what best practices of conservation and management should be 
applied to maintain a sustainable polar bear population. I hope 
we will explore that issue and be able to arrive at some data 
that will give us better guidance.
    I yield the balance of my time.
    The Chairman. The gentlelady's time is expired.
    The Chair recognizes the gentleman from Connecticut, Mr. 
Larson.
    Mr. Larson. Thank you, Chairman Markey. Let me put my plug 
in immediately for the New England Patriots, and I do think we 
will be wearing the silver and blue in celebrating.
    But let me associate myself with the remarks of my 
colleagues here, and specifically I am so pleased to see as 
well that we have so many young people in the audience today, 
because, as Mr. Inslee has said, this is about you, it is about 
our planet. I think of Teddy Roosevelt, that great, robust 
President who cared deeply about this country, its environment. 
I think of the bald eagle as our national symbol that almost 
was extinct. Today we have discussion over the issue of polar 
bears, who symbolically represent so much of the last vestige 
of the wild world in the North.
    And so I think it is important that kids are here today, 
because they not only get to hear the science and the facts, 
but they get to see their democracy in action, and they are 
stewards of the democracy of the future. And so you get to 
weigh the discussions and the arguments and the data and 
information that you hear from our experts, and then ultimately 
you get to decide as well. That is how our democracy works.
    It is interesting to see, I am sure, for you that there are 
differences of opinion when it comes to preserving our 
environment and making sure that we give the appropriate status 
to endangered species like the polar bear.
    Thank you, Mr. Chairman. I yield back.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    I must express some resentment at those of you speaking 
about the Super Bowl. In fact, I think we need to have some 
congressional hearings. Just because the Kansas City Chiefs 
lost the last nine games, there is no reason to prevent them 
from playing in the Super Bowl. I just don't think this is 
democracy.
    The Chairman. The polar bears of the NFL.
    Mr. Cleaver. Yeah.
    Thank you, Mr. Chairman.
    A short statement, and I am interested in the opinions of 
the witnesses. The strange thing about all of this is even if 
we don't drill in Alaska, I think most of the scientific 
community would agree that continuing to burn fossil fuel does, 
in fact, put more greenhouse gases into the atmosphere, and if 
there are more greenhouse gases in the atmosphere, the 
temperature the Earth will rise. If the temperature the Earth 
rises, the ice will melt. And so I think that even if you don't 
want to accept this as a current problem, just accepting the 
fact that fossil fuel creates greenhouse gas shows that there 
is a problem.
    And I guess the delight for me today is that one of the 
polar bears came in, and they think that it is wrong to drill.
    Thank you, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall of New York. Thank you, Mr. Chairman. And thank 
you for holding this hearing.
    I also believe that the polar bears are an iconic species, 
which people may not think that it directly affects human 
existence. But it is important to me and, I think, important to 
many of us and the children who are here today, those with 
imagination and appreciation and love for the nature that the 
Creator left us in a position of responsibility to protect and 
to guard, that species like the polar bear are allowed a chance 
to continue to have a habitat and to live. They are indeed part 
of the fabric of the ecological net that we also are a part of, 
and that one by one as the species that are threatened today 
are removed by continued excessive consumption and pollution, 
that net becomes more and more fragile and fragile to humans.
    Yesterday we had a meeting about the Tappan Zee Bridge with 
some of the representatives from New York and the New York 
State Department of Transportation commissioner, and I asked 
her, among other things, because the bridge is probably going 
to be rebuilt because it is deficient and aging--because of the 
bridge collapse in Minnesota, and everybody is thinking about 
other bridges that might be weak and need to be replaced, I 
asked her are they planning on building it higher because of 
the possibility of sea level increase, because the Hudson River 
which splits my district is tidal all the way to Troy, which is 
north of Albany, New York. In other words, if the sea level 
increases, the Hudson River level will increase, and that will 
affect things like the bridge, things like the rail--the 
freight rail line, and the west shore of the Hudson, and the 
passenger rail line and east shore of the Hudson that are only 
a few feet above sea level now, and if we have a significant 
increase in sea level and more frequent and more strong storms 
as a result, that these things will have a direct impact on 
people living in my district and on the economic life and 
investments that have already taken place in refurbishing 
waterfronts and building walkways, and boardwalks, and new 
restaurants and shops along these newly improved downtown 
waterfronts.
    Now, that might seem like a long cry, a far reach from a 
polar bear, but it is only one of the many ways that I believe 
we need to connect what is going on, the changes. I am looking 
at one of our witnesses' testimony, the difference between ice 
pack in September of 1979 and the ice pack in September 2007, 
and it is a significant reduction. I just don't think that we 
can wait to make the changes.
    The changes we need to make to save the polar bear are the 
same changes we need to make to stop asthma and emphysema from 
being such an epidemic in our inner cities and among our 
children; the same changes we need to make to save our balance 
and trade deficit from being worse; the same changes we need to 
make to stop shipping billions of dollars to oil states and 
unstable parts of the world and borrowing the money from other 
countries, including China, to pay for it. They are the same 
changes that are driving us into a loss of sovereignty and at 
the same time destroying our environment.
    And so that is a lose-lose-lose-lose energy policy. The 
policy that would change that and solve those problems is a 
win-win-win-win policy in which we create new technologies, new 
industries, jobs here in this country; keep our money at home; 
keep our children and elderly from suffering the effects of 
asthma and emphysema; cut back on oil spills, acid rain and 
other detrimental effects of fossil fuel consumption.
    So I am here to hear the witnesses. I have used up all of 
my time ranting. I thank you, Mr. Chairman, for holding this 
hearing.
    The Chairman. The gentleman's time has expired, and all 
time for opening statements from Members has expired. So we 
turn to our panel. Our first witness is Mr. Dale Hall, who is 
the Director of the United States Fish and Wildlife Service. 
Mr. Hall has spent the majority of his life in public service. 
Over the course of Mr. Hall's three decades with the U.S. Fish 
and Wildlife Service, he has played an important role in 
developing our Nation's fishery facilities.
    We welcome you, sir. Whenever you are ready, please begin 
your testimony.

    STATEMENTS OF H. DALE HALL, DIRECTOR, FISH AND WILDLIFE 
SERVICE; RANDALL LUTHI, DIRECTOR, MINERALS MANAGEMENT SERVICE; 
  AND STEVEN AMSTRUP, POLAR BEAR TEAM LEADER, U.S. GEOLOGICAL 
                             SURVEY

                   STATEMENT OF H. DALE HALL

    Mr. Hall. Thank you, Mr. Chairman, Ranking Member 
Sensenbrenner and members of the select committee. It is a 
pleasure to be here with you this morning.
    Mr. Chairman, I have requested my written statement be 
entered into the record.
    The Chairman. Without objection, it will be included in the 
record at the appropriate point.
    Mr. Hall. Thank you, sir.
    The Service proposed to list the polar bear as threatened 
throughout its range on January 9th, 2007, after a scientific 
review of the species found that populations may be threatened 
by the receding sea ice. Polar bears use sea ice as a platform 
for many activities essential to their life cycle, especially 
hunting for their main prey, Arctic range seals.
    At the time Secretary Kempthorne announced the proposal, he 
directed us to work with the USGS, the public, and pertinent 
sectors of the scientific community to broaden our 
understanding of what factors affect the species to gather 
additional information to inform the final decision on whether 
the species warrants Federal protection under the ESA.
    To assist in that effort, we opened a 3-month public 
comment period and held public hearings in Anchorage and 
Barrow, Alaska, and Washington, D.C. In June 2007, we hosted a 
meeting that included official representatives from all of the 
countries within the polar bear's range. The meeting provided a 
forum for the exchange of scientific, management and technical 
information among the range nations.
    In September 2007, USGS scientists supplied their new 
research to the Service, updating population information on 
polar bears in the Southern Beaufort Sea of Alaska, and 
providing new information on the status of two other polar bear 
populations. USGS studies provided additional data on Arctic 
climate and sea ice trends and projected effects to polar bear 
numbers throughout the species' range.
    As a result of the new USGS research findings, we reopened 
and later extended a second comment period to allow the public 
time to review and respond to the USGS reports. We received 
numerous comments on the USGS reports and have been working to 
analyze and respond to the information provided during the 
extended comment period. We expect to provide a final 
recommendation to the Secretary and finalize a decision on the 
proposal to list the polar bear in the very near future.
    Part of today's hearing focuses on the possible oil and gas 
development activities occurring in polar bear habitat. As we 
noted in our January 9 proposed rule, the Service determined 
that these activities do not threaten polar bears throughout 
all or a significant portion of their range after review of 
factors including the mitigation measures required under the 
Marine Mammal Protection Act; historical information on 
development activities; lack of direct, quantifiable impacts to 
habitat from these activities noted to date; the localized 
nature of the development activities or possible events such as 
oil spills.
    In particular, the incidental take provisions of the Marine 
Mammal Protection Act ensure that any impacts on the species 
will be negligible and will not have an unmitigable impact on 
the availability of the species for subsistence use by Alaska 
Natives.
    I look forward to working with you as we move forward in 
this process, and I look forward to working with all of the 
entities, including the State of Alaska, other Federal 
entities, the Congress, international community and others, as 
we work to conserve this very important species.
    Thank you, Mr. Chairman.
    The Chairman. I thank you, Mr. Hall, very much.
    [The statement of Mr. Hall follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Our second witness is Mr. Randall Luthi. He 
is the Director of the Minerals Management Service in the 
Department of Interior. Mr. Luthi previously served as speaker 
of the Wyoming House of Representatives.
    We welcome you, sir. Whenever you are ready, please begin.

                   STATEMENT OF RANDALL LUTHI

    Mr. Luthi. Thank you, Mr. Chairman, and thank you, members 
of the committee, Ranking Member Sensenbrenner. It appears 
right now as I have listened to the opening statements what we 
all agree on is we are glad you had this hearing. It will be 
interesting as we go through and listen to the various opinions 
that are expressed today.
    I want to take an opportunity to let you know of our 
activities of dealing with the Chukchi Sea and the Alaskan 
Outer Continental Shelf. And from the very beginning, from the 
outset----
    The Chairman. Could you turn on your microphone? I am 
sorry. I am not sure it is on.
    Mr. Luthi. I am sorry that all those witty comments were 
lost.
    Once again, let me state at the outset that the MMS has 
worked closely with our sister agency, the Fish and Wildlife 
Service, throughout this process. This partnership is focused 
on protecting wildlife in the environment as we conduct an 
offshore energy program. We believe that energy resource 
development can be achieved consistent with the stewardship 
responsibilities, and believe me we take those stewardship 
responsibilities seriously.
    The Department of the Interior and its agencies, including 
the Minerals Management Service, are public stewards of our 
Nation's natural resources. We also play an extremely vital 
role in the domestic energy development. One-third of all 
energy produced in the United States comes from resources 
managed by the Department of the Interior, both onshore and 
offshore. Our National security, our economy and our quality of 
life are dependent upon energy.
    Last week we issued a Record of Decision to move forward 
with alternative energy development in the Outer Continental 
Shelf, which will help us as a Nation expand our use of 
renewable energy resources. This represents an important 
milestone in charting a course designed to increase our energy 
security through the development of a variety of resources, and 
that is so important at this time in our lives.
    May I have the first slide, please? And you have it up.
    This just gives us an idea of what we are looking at. This 
is a slide from the EIA. You will notice our U.S. consumption 
of energy is expected to continue to increase. It appears that 
our U.S. production is also going to increase, but at a lower 
rate. What that means is we import energy, we import energy. 
Most of that energy is going to be oil and gas that we import.
    It is projected that we are going to see gasoline--an 
average gasoline price of $3.50 by this spring. It is unheard 
of a few years ago, but we now flirt with $100-a-barrel oil. It 
is projected that our increase in our demand for energy will 
increase by 24 percent by the year 2030, and during that same 
total period of time, as the chart indicates, our domestic 
energy will not significantly increase.
    Currently the gap, as I have mentioned, in this import and 
our demand are filled by energy imports. In 2006, we imported 
10 million barrels of oil and nearly 11\1/2\ million cubic feet 
of natural gas. It is predicted by 2030 an additional 1.9 
million barrels of oil and 1.6 million cubic feet of gas per 
day is going to be above our current levels.
    Next slide, please.
    When we look at emerging economies--and this next slide 
takes a look at what the world consumption of energy is 
predicted to be. And once again, we are used to the idea that 
when we needed imports, we could get them. I think we are 
facing the possibility that that is going to be more and more 
difficult to do as you look at the great amount of energy the 
world is looking at.
    We think it is important that as part of or energy resource 
portfolio, that we continue to develop those natural resources. 
In fact, the EIA once again predicts no matter what we do in 
the next generation, the generation that we have talked about 
already this morning, we are going to rely largely upon the 
traditional forms of energy; that is, coal, oil and gas. It is 
my belief that we need to work with those resources as well as 
alternative resources to reduce our energy independence.
    Let us take a minute to look at the Chukchi Sea. Chukchi 
Sea sale is one of four areas that we have included in our 5-
year leasing program. Between 1988 and 1991, there were four 
lease sales in the Chukchi Sea area; 483 blocks were leased, 5 
exploration wells were drilled, and all of those wells 
indicated the presence of some oil and gas. We estimate that 
this area contains approximately 15 billion barrels of oil and 
76 trillion cubic feet of gas.
    This process, as we go through a sale, includes 
consultations and conferences with the Fish and Wildlife 
Service and the National Marine Fishery Service under the 
Endangered Species Act, as well as the Marine Mammal Protection 
Act. Both of those agencies issued no jeopardy biological 
opinions.
    These reviews went to the potential direct, the indirect 
and the cumulative effects of the lease sale on marine mammals, 
including polar bears, as well as subsistence activities.
    Mr. Chairman, to use your analogy, we believe that we have 
put on our underwear first, our T-shirt, our socks, our shirt, 
our pants and then our shoes, and lastly the belt. We think we 
have done a good job in making sure we understand the potential 
effects of this sale.
    If you go back to the last slide, please, that gives you an 
idea of some of the things we have done on this slide. What the 
slide indicates there, if you will look at that, that is the 
coast of Alaska. That narrow white line is the State land, 
submerged lands. The next blue line is the area originally 
included in the sale, the proposal, as well as that pink.
    What we did after consultations of the Fish and Wildlife 
Service as well as the Native groups, we reduced the size of 
the sale back to the green line, so that means at least 25 to 
50 miles offshore, which is important critical habitat for 
beluga whales, for migratory birds, as well as the polar bear. 
In addition, that area that is shaded there would indicate that 
if any leases were leased in that area, they would have 
additional restrictions regarding exploration and development 
in order to protect natural resources.
    MMS has an important role in providing information. In the 
last 30 years we have provided nearly $300 million of funding 
to study natural resources in the offshore of Alaska, including 
the polar bear.
    Mr. Chairman, I see that my statement goes on much longer 
than the stop light does, and again, having been somewhat in 
your seat at a smaller level, I understand the importance of 
trying to move this along. I would ask, however, that my full 
written statement be included in the record. I look forward to 
attempting to answer questions that the committee might have.
    The Chairman. I thank you, Mr. Luthi, and your entire 
statement will be included in the record. We thank you.
    [The statement of Mr. Luthi follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. We also have with us and sitting at the table 
Dr. Steven Amstrup, who is the Polar Bear Team Leader for the 
United States Geological Survey. He is not going to deliver an 
opening statement, but he will be here to answer questions from 
any member of the select committee. He is a renowned wildlife 
biologist with the USGS at the Alaska Science Center and one of 
the world's preeminent polar bear experts.
    So we thank you for being here as well, Dr. Amstrup.
    So the Chair will now recognize himself for a round of 
questions. Let me begin with you, Director Hall.
    Can you assure the committee and the public that science 
and only science is and will control the final listing decision 
for our polar bear?
    Mr. Hall. Yes, sir.
    The Chairman. Director Hall and Director Luthi, will the 
final polar bear listing decision be made and be effective 
before the scheduled February 6th Chukchi lease sale?
    Mr. Hall. Since that time frame is in my lap, I will 
respond to it.
    Mr. Luthi. Thank you.
    Mr. Hall. Last week I held a press conference and announced 
that we will have to take some extra time. That responsibility 
is mine. I don't like to do that. I don't like to miss due 
dates, but I want to make sure that when we roll out a package 
to the public in the Federal Register, that it clearly 
demonstrates the well-thought-out process that we went through 
and how and why we reached the conclusion that we reached.
    It was mentioned earlier that there are uncertainties in 
science, and frankly, that is the nature of science. If we 
moved forward expecting to have a decision that didn't have 
uncertainties with it, we would never make a decision. That is 
the world we live in. And natural resource management, we are 
constantly predicting what might happen in the future, but not 
just what might; what do we expect, what do the best data lead 
us to believe. And taking this extra time, I wanted to make 
sure that our staff and I had enough time to clearly 
understand, be able to explain both the reasons why we accepted 
the information that we accepted and relied upon and the 
reasons why we didn't.
    The Chairman. I appreciate that, Director Hall, but we do 
need assurances that the public listing decision will be made 
before the lease sale. And so there is a real problem here, and 
we have to do something about it. So I am going to introduce 
legislation later today with members of this committee that 
will ensure that the Interior Department makes these two 
decisions in the correct order.
    My legislation will require that the final listing and 
critical habitat designation decisions for the polar bear be 
made before the Chukchi lease sale can take place. This will 
not prevent the Chukchi Sea leasing, but simply require that 
the Interior Department, the two of you sitting here, make the 
decisions in the proper order to protect the polar bear. It is 
one agency; you have one Secretary who runs your agency, and 
this decision-making process should occur in the proper 
sequence. And I am going to introduce legislation to make sure 
that that is the way in which it happens.
    Dr. Amstrup, can you tell us in your opinion how endangered 
is the polar bear?
    Mr. Amstrup. Thank you, Mr. Chairman.
    Our research completed this past summer contributed to a 
body of information that already existed on polar bears. That 
research suggested that within the next 50 years or so, that 
the population of polar bears could decline by approximately 
two-thirds because of changes in the sea ice habitat that are 
related to global warming. These results were based on a 
variety of modeling efforts, based on outputs from general 
circulation models, and outputs from population dynamic models, 
and our best attempt to synthesize all of those into a 
comprehensive forecast of what the future for polar bears might 
be.
    The Chairman. I thank you, Dr. Amstrup, very much. I thank 
you for your work as well.
    This is an important moment for Secretary Kempthorne. He 
must do the right thing. He must ensure that Mr. Hall makes his 
decision before Mr. Luthi makes his decision. He must make sure 
that the polar bear has the proper legal protection before Mr. 
Luthi makes his decision as to where and how drilling will take 
place for oil and natural gas.
    We don't want to either lose a polar bear or our potential 
for more oil and gas in this country, but we have to do both in 
a way that is sensitive to the role that each plays in our 
society, and Secretary Kempthorne has a big historical moment 
that he is going to be presented with. And we are going to do 
everything that we can in order to ensure that the public 
understands how critical that decision is.
    Let me turn now and recognize the gentleman from the State 
of Wisconsin Mr. Sensenbrenner.
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    I have a technical question for Dr. Amstrup. What has been 
the trend in the polar bear population since 1972? Do we have 
more of them, less of them, same number?
    Mr. Amstrup. Thank you, Congressman. That is a good 
question because it is one that has come up repeatedly in the 
press and in the public.
    Historically our knowledge about polar bears goes back to 
about the mid-1960s, and it was at that time that people who 
were interested in Arctic wildlife realized that polar bears 
pretty much worldwide were being harvested extensively. We had 
aerial trophy hunting that was occurring in Alaska. There was 
ship-borne trophy hunting that was occurring north of Norway. 
They were using set guns on the Svalbard archipelago to kill 
polar bears, basically a trap kind of a situation, to get the 
furs, and populations were recognized as being very low at that 
time frame. Just how low they were wasn't clear because nobody 
had been doing----
    Mr. Sensenbrenner. My time is limited.
    When did the hunting protection of polar bears kick in? 
What year was that?
    Mr. Amstrup. 1972 is when the Marine Mammal Protection Act 
kicked in.
    Mr. Sensenbrenner. So the Marine Mammal Protection Act, at 
least in the United States, stopped the type of hunting that 
you were describing that occurred in the 1960s.
    Now, what has happened to the polar bear population since 
the Marine Mammal Protection Act became effective; has it gone 
up?
    Mr. Amstrup. Our research has shown that the populations 
have increased substantially not only in Alaska, but in many 
other parts of their range.
    Mr. Sensenbrenner. That is the answer that I was looking 
for.
    Now, Mr. Luthi, did I hear you correctly when you testified 
that the proposed lease in the Chukchi Sea, there had been an 
examination of the impact on the polar bear habitat, and the 
result was that if the exploration and the drilling occurred, 
that there would be a negligible impact on the polar bear added 
to it? Did I hear you correctly when you said that?
    Mr. Luthi. That is correct, and that was also, I believe, a 
statement by Director Hall.
    Under the Marine Mammal Protection Act, we are also 
required to confer with the wildlife agencies, and that is 
actually one of the stricter acts that is available, and we 
must comply with that as well.
    Mr. Sensenbrenner. Well, after hearing you, Dr. Amstrup, 
and having heard the result of your study, Mr. Luthi, let me 
say that the fears that I expressed in my opening statement I 
guess are coming to fruition. It seems that the scientific 
evidence that Dr. Amstrup has referred to and the study that 
Mr. Luthi has done in the course of the discharge of his duties 
indicates that while there is perhaps a problem with polar bear 
population, going ahead with the lease will not have a major 
impact on the habitat of the polar bears in this part of the 
sea across Alaska.
    Now, if that is the case, then I don't think Mr. Markey's 
bill has the scientific background that is necessary to effect 
what he wants to do, and that this process is going along 
fairly well, even though it is a two-track process under the 
existing law that has been passed by this Congress. So what is 
the beef? And I yield back the balance of my time.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you.
    I just want to comment on some of the things said on 
opening statement about the problem that we face, people 
suggesting that there is no clear science about what is 
happening in the Arctic. And it is unbelievable to me that 
people are still adopting the attitude of the ostrich in this 
situation.
    One million square miles of the Arctic disappeared this 
summer, that is the size of six Californias disappeared, 
stunning the scientific community; the news that probably about 
40 percent of the depth of the Arctic has gone AWOL in the last 
couple of decades. And people who refuse to ignore this plain 
visual evidence--I don't know how we are going to solve our 
problems as a country if they refuse to recognize the visual 
evidence. It is not hypothetical, it is not theoretical, it is 
gone. I just want to make that comment.
    I want to ask Mr. Luthi about the risk of oil spills with 
polar bears. Some people suggested essentially no risk, but I 
am reading from the Environmental Impact Statement of May 2007. 
It says, we estimate the chance of a large spill greater than 
or equal to 1,000 BBL occurring in offshore waters is within a 
range of 33 to 51 percent. For purposes of analysis we model 
one large spill of either 1,500 BBL platform spill or 4,600 BBL 
pipeline spill. If a large spill were to occur, the analysis 
identifies potentially significant impacts to bowhead whales, 
polar bears, essential fish habitat, marine and coastal birds, 
subsistence hunting, and archeological sites. Is that the 
conclusion in the Environmental Impact Statement?
    Mr. Luthi. Thank you, Mr. Chairman and Representative 
Inslee. I believe you may be reading from our Environmental 
Impact Statement; is that correct?
    Mr. Inslee. Yes.
    Mr. Luthi. An Environmental Impact Statement, as you are 
well aware, has asked us to basically evaluate all kinds of 
impacts. I don't think we would be doing our job effectively if 
we didn't realize and say that we are going to look at the 
possibility of a spill whenever there is development. The 
history shows us differently. The reality is particularly in 
the Alaska area industry has been very careful, and we require 
that they be responsible for also having clean-up equipment 
available.
    But we do want to say that there is the potential to spill, 
otherwise it would be----
    Mr. Inslee. I appreciate that, and that is why we would 
like to have the science before you make the decision. If I 
told you there is a 33 to 51 percent chance of you getting run 
over by a bus in the next year, I think you would think that 
was significant, and you would want to know that before you 
made decisions.
    You have concluded there is a 33 to 51 percent chance of a 
spill, which, in your own words, and I will quote from your own 
agency Final Environmental Impact Statement, says, ``Our 
overall finding is that due to the magnitude of potential 
mortality as a result of a large oil spill, the proposed action 
would likely result in significant impacts to polar bears if a 
large spill occurred,'' close quote.
    Despite that own finding of your own agency, nonetheless 
you have decided, unless something changes, to go ahead with 
the lease of these extreme number of acres, despite the fact 
that that is a substantial risk, knowing that the other part of 
the agency is about to enter or could enter an endangered or 
threatened species declaration; is that accurate?
    Mr. Luthi. Mr. Chairman and Representative Inslee, you 
quoted the EIS certainly accurately, and I would point out to 
you the word ``if a large spill occurs.'' The purpose of an 
impact statement is to evaluate those potentials. We then are 
left to the agency some discretion of how to overcome and 
mitigate that potential impact which we have.
    Now, in addition, you mentioned the second part of your 
statement deals with before the Endangered Species Act kicks in 
or if it does. Frankly, as I said in my opening statement, we 
have worked with Fish and Wildlife Service very carefully about 
consultation not only with the polar bear, but also all marine 
mammals. We believe that adequate protections exist. Should the 
Fish and Wildlife Service list----
    Mr. Inslee. I understand you believe that, but I tell you 
what, my constituents do not believe that. My constituents 
believe, the 650,000 people believe, that you are acting in 
willful ignorance of known science by making this decision 
before the taxpayer money is used adequately to evaluate this 
science. And when your own agency recognizes this threat, it 
is, I believe, negligent in the extreme to make this decision 
without having the declaration by the other agency.
    One other question. I sense from your testimony, reading 
your testimony and what the agency has said, that it treats a 
declaration of endangered or threatened species as sort of a 
nullity, kind of no big deal. We kind of do the same thing 
whether or not there is a designation, and I find that totally 
disrespectful of the law, and I can't understand how you take 
that position. Tell us what would be different about your 
leasing decision if there had been a designation before your 
decision?
    Mr. Luthi. If I understood your question correctly, it 
would be what would change if the polar bear had been listed as 
we went through the sale process; is that correct?
    Mr. Inslee. Yes.
    Mr. Luthi. What would be different would be one more layer 
of consultation, and it would be an official consultation under 
the Endangered Species Act. However, and let me underline 
``however,'' what I believe you are not pointing out 
particularly is the protections under the current act, the 
Marine Mammal Protection Act, which in many senses is actually 
more strict. What the consultation would result in--well, we 
don't know what it would result in, but what the purpose would 
be is to make sure any activities that we authorize do not 
jeopardize the existence of whatever creature or critter 
happens to be listed.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon.
    Mr. Walden. Thank you, Mr. Chairman. I want to continue to 
pursue this line of questioning.
    Mr. Luthi, I had written down this question: What happens 
if you go ahead with the leases, and then the polar bears are 
listed? Tell me practically what happens.
    Mr. Luthi. Mr. Chairman, Representative Walden, thank you 
for that question.
    Should the polar bear be listed, what that does is add an 
additional layer of consultation. The leasing process is 
actually a very phased process. The sale of the lease is only 
the first. The second step comes in when the company develops 
an exploration plan. That plan has to be approved by us. It has 
to be reviewed by the Fish and Wildlife Service agency. It has 
also to be consistent with basically the State plans as well. 
So that would be probably the first time that additional layer 
of consultation would take place is when they actually had a 
development plan. That would occur again should they have a 
production plan, and at least one more time in the process 
before the oil or gas should actually flow.
    Mr. Walden. Do you have other threatened or endangered 
species listed where you have leases in the Arctic?
    Mr. Luthi. Yes, we do. We have the--the eiders are listed, 
as well as, I think, one of the whale species; is that correct, 
Dale? Yeah, yeah. Actually that would be on the whales we 
consult with the National Marine Fishery Service.
    Mr. Walden. Can you tell me the historic activities that 
have occurred after those leases have been let and the species 
have been listed? Have you seen spills, have you seen threats 
to these species, have you seen loss of life?
    Mr. Luthi. Mr. Chairman, Representative Walden, I am 
pleased to tell you that in the limited exploration and 
development that has happened in the current Outer Continental 
Shelf of Alaska, we have seen no blow-outs, only very small 
spills, and these are spills that are normally contained. They 
are more diesel in the preparation as opposed to actual crude 
oil, and we have not had--to my knowledge, there has not been a 
take or harassment of the endangered species.
    Mr. Walden. Now, talk to me a bit about--you mentioned in 
response to Mr. Inslee's question, but you didn't get into any 
detail, that you would have to overcome and mitigate if there 
were a spill. I mean, your environmental planning process says, 
here's the range of options, here's the worst thing that could 
happen, and then don't you go to the next step and say, and 
here's how we would mitigate to make sure that didn't happen? 
So I am concerned Mr. Inslee is saying you have a 33 to 50 
percent chance of is it a 1,000-barrel spill?
    Mr. Luthi. I believe that is what he quoted.
    Mr. Walden. And is that your worst-case scenario?
    Mr. Luthi. Mr. Chairman, Mr. Walden, I believe it is. But 
what I would also like to do, Mr. Chairman, if you would grant 
me the opportunity, I brought back-up. John Goll is our 
Regional Director in Alaska and has worked personally on the 
EIS far longer than I have. And if you would want more 
technical answers----
    Mr. Walden. Yes, I would. Mr. Chairman, if that is okay.
    The Chairman. I have no problem. The gentleman has a 
minute.
    Mr. Walden. I have about 2 minutes left, so make it quick.
    The Chairman. If the gentleman would come up to the table, 
identify himself for the record and then answer the question 
from the gentleman. And I will extend the gentleman an extra 
minute.
    Mr. Walden. Thank you, Mr. Chairman. I appreciate it.
    Mr. Goll. My name is John Goll. I am the Regional Director 
with the Minerals Management Services Office in Anchorage, 
Alaska. And with regard to, we review basically two types of 
information when we evaluate a sale. One is what we reasonably 
expect. That is activity that we know will happen, the activity 
in the water and such. And, for example, when an operator goes 
under there in Alaska, they have gotten authorization from 
either the National Marine Fisheries Service or the Fish and 
Wildlife Service for the Marine Mammal Protection Act 
authorization. So that is where the protection comes in. The 
companies do apply for that. And they are required then under 
those acts to follow certain requirements.
    We also evaluate though, again for disclosure, that if 
there were a spill what might happen. So we look at the various 
kinds of scenarios, and that I think is what you are asking.
    Mr. Walden. Then I also understood you have then mitigation 
to overcome that, is that right, proposals to overcome and then 
what you would do if it happened?
    Mr. Goll. Actually, the expectation from a sale from an 
expected value is that we expect no significant spills.
    Mr. Walden. I am going to run out of time here. I want to 
go back to this issue that there is an anticipation of a 33 to 
51 percent likelihood of a 1,000-barrel spill if these leases 
are let. Is that accurate?
    Mr. Goll. That is what our statistics show.
    Mr. Walden. And you have no way to mitigate or prevent 
that?
    Mr. Goll. No, there is mitigation.
    Mr. Walden. Okay. Get to that.
    Mr. Goll. The last offshore spill from a platform was in 
1980. Spills generally occur, if they do occur, at the 
development stage, and we have had a very good record since. 
There are many redundancies with regard to the drilling 
programs. The technology today is much better. The statistics 
we have used go back in time, so you are including a lot of 
past records.
    Mr. Walden. So in the 33 to 51 percent chance of a spill of 
1,000 barrels this does not reflect modern technologies?
    Mr. Goll. Our goal is to prevent any spill from occurring. 
And with our regulatory system what I am saying is we have been 
very successful in that in the last 2 decades or so.
    Mr. Walden. Since 1980. Almost 3 decades then?
    Mr. Goll. Correct.
    Mr. Walden. Thank you, Mr. Chairman. Thank you for the 
courtesy in extending the additional time. I appreciate the 
witness' comments.
    The Chairman. The gentleman's time has expired. The Chair 
recognizes the gentleman from Connecticut, Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman. And let me continue 
with this line of questioning, because I think it is 
informative. Mr. Markey has made a proposal that seems to me 
just on the face of it to be logical and pragmatic. Mr. Hall, 
Mr. Luthi, would you object to the legislation as proposed or 
do you think that that is sound policy and practice?
    Mr. Hall. Well, it is probably a question that I can't 
answer, because I don't make the decision for the 
administration on what they support or don't support. That 
comes through the statement of administration first.
    Mr. Larson. Well, let me ask you personally.
    Mr. Hall. Personally, the activities, what Director Luthi 
has been saying is true. We don't have any substantial records 
that the oil and gas exploration have created an issue for the 
polar bear.
    Mr. Larson. And yet Mr. Inslee in his questioning says that 
by your own statement you recognize that should a catastrophe 
occur there is a risk here of 33 to 51 percent, which you both 
said earlier this would have negligible impact. Does it not 
make sense to follow what Mr. Markey has laid out so that we 
can, or is it because you don't want to encounter the 
consultation that you will have to go through that surrounds 
making the polar bear an endangered species? What is the big 
deal here? I don't understand why--what is behind this? Why 
wouldn't you proceed in the order that Mr. Markey has 
suggested?
    Mr. Hall. We will proceed. And quite frankly if I hadn't 
made the decision that I made to give us more time it would 
have worked that way anyway. And I apologize for doing that, 
but I just felt like we had to give our staff an opportunity. 
But quite frankly I am a biologist that happens to be sitting 
in a position that is political and has that ramification, and 
I am never quite comfortable in telling anybody what kind of 
laws they should pass.
    Mr. Larson. Well, listen, I thank the both of you for your 
public service. These are difficult decisions, but they are 
very important decisions for the country, and in this case for 
not only the polar bear, but as you have acknowledged in your 
own comments, other mammal life as well.
    Dr. Amstrup, could you answer the question, given the 
record low summer sea ice this year, what are you doing to 
understand the impact on polar bears and what could you tell us 
about the future impact of global warming and this melting with 
regard to that?
    Mr. Amstrup. Well, let me try and answer the second 
question first. The work that we have done has suggested that 
the changes in the sea ice that are projected to occur and have 
already been observed to have occurred are having a negative 
impact on polar bears across different reaches of their range. 
And we expect that those negative impacts will continue. What 
we are planning to do about them is, in terms of understanding 
what our projections, how accurate our projections are and 
whether or not we need to adjust our projections in the future, 
is we do plan to continue the monitoring that we have been 
doing for years. We are trying to get work done in the Chukchi 
Sea, which we don't have much recent research ongoing or 
haven't had recent research ongoing in the Chukchi Sea. We do 
plan to continue the research in the Beaufort Sea where we have 
got a long-term data set. And we are hopeful that that will 
continue to refine our understanding of the impacts.
    Mr. Larson. What would a spill, as they have indicated in 
their own assessment here, what would that mean with respect to 
the polar bear?
    Mr. Amstrup. We don't really have any data that would 
address what the effects of a spill of that size might be in 
that environment. We did do an analysis of an oil spill in the 
Beaufort Sea on an offshore proposal that was made some years 
ago. And what our research showed there is that spills that 
escape the shoreline, that is when the oil moved offshore, 
there was a substantial risk of a large number of bears 
encountering the oil. In the Chukchi Sea the situation is very 
different than it was in the Beaufort Sea, and it would require 
additional work like that to get quantitative information on 
what those risks might be. With regard to the risks of polar 
bears if they encounter oil, the data that are available are 
few, but pretty clear polar bears do not do well when they get 
into oil. They tend to groom themselves, they ingest the oil 
and the spills tend to have a--basically they most likely are 
fatal.
    Mr. Larson. Now, Mr. Luthi, would you in the question I 
asked Mr. Hall before, just as a quick follow-up, do you think 
that Mr. Markey's proposal is a common sense, pragmatic course 
that we should take? What is the big deal here?
    Mr. Luthi. Mr. Chairman, Representative Larson, I 
appreciate the question. Again, I haven't seen the proposal. I 
would have to read it in detail. However, as I would say again, 
we wouldn't be proceeding with this sale if we weren't 
comfortable that we had enough knowledge, enough data, to say 
that we can adequately see that the polar bear is protected, as 
well as other endangered species, if, let me underline if, if 
the department makes a decision to list the polar bear. We take 
it--I am very serious about seeing that we do this right. And I 
believe we are doing it right.
    It is interesting. We talk a lot about data and science and 
the information that is out there. And one of the reasons the 
data that has been collected so far is in anticipation of 
sales. That is one of the reasons that we actually start 
spending money to try and get more and more data about the 
Chukchi Sea, about natural resources. So it is actually a help, 
and to some degree with our scientific knowledge.
    The Chairman. The gentleman's time has expired. The Chair 
recognizes the gentleman from Arizona.
    Mr. Shadegg. Thank you, Mr. Chairman. I apologize for my 
late arrival. I am fighting a bad cold.
    Mr. Hall, can you give me a broad description of the 
implications of trying to make a decision to list a species as 
endangered or threatened in the context of global warming?
    Mr. Hall. Well, this has been one of the most difficult 
processes that we have gone through because it is atypical. 
Normally the 1,300 species that we have on the list, we have 
seen wetlands developed, we know exactly the point sources of 
where we are losing them, all the different aspects associated 
with it. We have better population estimates in a lot of cases. 
So in the case of global warming where the impacts are coming 
literally from everywhere, it has been pretty difficult. 
However, the responsibility to answer the questions brings it 
back into scope that we can deal with. Because the questions 
under the Endangered Species Act still deal with the habitat 
for the species, the impacts that may occur to the species, and 
those we call the five factor analysis. And that is the process 
then that we have gone through with the help of USGS and any 
other science that is out there to understand, not necessarily 
all the different sources and where they are coming from, maybe 
even what country they are coming from, but for the purposes of 
the listing of the Endangered Species Act, it is what is 
happening to the habitat that is the question that we are 
answering.
    Mr. Shadegg. Would any of the other of you like to comment 
on that?
    Mr. Luthi. I don't think I can add anything to the 
procedural aspects. If there is a particular question I would 
attempt to try it involved with the Chukchi Sea or the sale 
process.
    Mr. Shadegg. Mr. Hall, is there the potential that someone 
could, on the basis that the sea was rising, allege that some 
country was, an island country, could allege that the species 
on their habitat were threatened as a result of what is 
happening and try to affect any decision you make based on a 
remote effect, and you said depending on the country it is 
coming from effects very remote from where, for example, you 
were looking up?
    Mr. Hall. I am sorry. I am not exactly sure what you are 
asking.
    Mr. Shadegg. Let us say a company in my State of Arizona 
decided it wanted to build a coal-fired power plant. Would they 
be required to consult with the Fish and Wildlife Service to 
ensure that their actions wouldn't affect polar bears in the 
Chukchi Sea?
    Mr. Hall. They would be--anyone that is proposing an 
activity that could impact a listed species, if it has any kind 
of Federal connection, would require Section 7 consultation, 
and under coal-fired plant. Then Energy or whomever would have 
to consult. The question would then be, do we have the science, 
do we have the technology, do we have the capability of making 
the linkage to take. Because the Endangered Species Act is 
pretty specific in what we have to establish. And the courts 
have made sure that we understood that.
    Unfortunately, we have lost some cases where the courts 
felt like we were being speculative in coming up with take. The 
Arizona Cattle Growers Association case at the Ninth Circuit 
upheld, told us that we were wrong, that we couldn't speculate, 
that we had to have a direct cause leading to take before we 
could say that take was occurring. And that the attorneys that 
have really interpreted that to mean the but-for clause: But 
for this action would this take have occurred. And the burden 
is on us and the science to be able to make that very direct 
linkage to the take and to the diminishment of the population 
of the species. Because the Endangered Species Act listing is 
for the species. Habitat is a measurement of damage or positive 
impacts, if we can improve it, to the species. But the act has 
us analyze take and then leading to jeopardy or no jeopardy. 
And the science as it is today, even the IPCC information, 
would not allow us to segment out that this particular set of 
emissions caused this particular set of impacts leading to 
take. That is the difficulty with this.
    Mr. Shadegg. I think the answer to my question is, and my 
time is up, if the allegation was that those emissions could 
cause that effect, if they could answer the but-for, the answer 
to my question would be yes?
    Mr. Hall. Yes. They would have to consult if they believed 
that they may contribute to the effects. But then the next 
question is, is it likely to adversely affect. And that is 
really the part I was answering there that would be extremely 
difficult to deal with.
    Mr. Shadegg. Fair enough. Thank you very much.
    The Chairman. The gentleman's time has expired. The Chair 
recognizes the gentleman from Missouri, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman. Mr. Hall--Mr. Luthi 
first. Are you familiar with the USS Arizona?
    Mr. Hall. To some degree yes, sir.
    Mr. Cleaver. It went down in Pearl Harbor. It was one of I 
think nine ships that went down in the attack. Have you ever 
gone there in Pearl Harbor to see the ship which is on the 
bottom, but there is an area where people can walk over and 
actually look down in the water and see the remains?
    Mr. Luthi. Unfortunately, I have not been able to see that 
personally, Congressman Cleaver.
    Mr. Cleaver. Each day when thousands of people go over, 
actually it is the number one tourist attraction in Hawaii 
oddly, oil is bubbling up out of the Arizona every single day 
60 years later, 60 years later. You can see it on the water. I 
mean it is just laying on the water and you can see it 
bubbling. It is amazing that it is continuing this long. And so 
I watched it last week and realized the lasting impact on oil 
spills and what it does to the environment and to the animals 
and species that are impacted.
    I am also wondering, this is a difficult question, I hope 
it is fair, do you think that the U.S. Fish and Wildlife 
Service is strictly dealing with fish and wildlife or does it 
get into ideological issues as it looks at fish and wildlife 
issues? Any of you.
    Mr. Luthi. Mr. Chairman, Congressman Cleaver, this is one I 
think I really should defer to Mr. Hall as Director of the Fish 
and Wildlife Service.
    Mr. Hall. Well, I am going to try and interpret your 
question.
    Mr. Cleaver. No, no, no. I will say it again if you didn't 
understand it. I usually don't like for people to interpret 
what I say.
    Mr. Hall. Good. That is why I was going to say what I 
thought you said.
    Mr. Cleaver. Okay. Good. What part didn't you understand?
    Mr. Hall. The philosophical part.
    Mr. Cleaver. No, ideological.
    Mr. Hall. Ideological, okay.
    Mr. Cleaver. Is it ideological or scientific, is your 
decision ideological or scientific or is it a mix of two?
    Mr. Hall. Over my 29 years with the Fish and Wildlife 
Service I think I can speak with some confidence that our 
employees approach work from, number one, trying to be a 
professional, and number two, trying to be honest about what we 
know and don't know. And as I spoke earlier, in all science 
there is a lot we don't know, but we have to deal with it. But 
as far as being ideological, I believe the vast majority of our 
employees, and I am one of those, believes that we should be 
advocates for truth, whatever that is. And if the truth means 
that there is an impact, we need to say that and if the truth 
means there isn't, we need to say that. Because I think the 
public depends upon us to be as honest in our disclosures as we 
possibly can be.
    Mr. Cleaver. I appreciate that.
    Mr. Hall. If that is the ideology you are talking about.
    Mr. Cleaver. Yes. Not completely. But I mean when we begin 
to discuss this issue, global warming, endangered species, 
quite often we get into an ideological discussion that has to 
do with free commerce and government intervention into business 
and that kind of thing. And so there is a whole bit of 
resistance to the acceptance of the science based on ideology 
and not science. But dealing with the whole issue of receiving 
the facts and dealing with them honestly, is there any doubt in 
your mind at this point that the habitat of the polar bear has 
been damaged?
    Mr. Hall. Oh, I think there is a difference between has 
been. We certainly lost 20 percent. But the decision that we 
are trying to make, and will make, will be over the foreseeable 
future, which actually would take us out to mid century as 
well. And we know, based upon the science, that the habitat is 
leaving us. So there is no doubt that that is happening.
    Mr. Cleaver. So what is the problem?
    Mr. Hall. There is a lot of--you know, I have tried to say 
this, and perhaps I am not being clear. It is not just making a 
decision that is important. It is making it clear and why. 
Because we had over 600,000 comments come in, and there were 
people that didn't agree that the issue you have described is 
there. There are people that believe that it was. Our 
responsibility is to answer for everyone that when we have 
uncertainty, that we accept, because we accept some risk in 
everything, but we explain that.
    Mr. Cleaver. But you----
    Mr. Hall. I want to get to when I release a document with 
my signature----
    Mr. Cleaver. Excuse me, my time is running out. But you 
have already said that you agree with me that the habitat has 
been damaged?
    Mr. Hall. Uh-huh.
    Mr. Cleaver. Didn't you say that?
    Mr. Hall. I think that is factual record that we have lost 
20 percent of the ice, I believe it is 20 percent since the 
1970s, roughly, a little more than that. I think that is 
scientific record.
    Mr. Cleaver. So how much do you think we need to lose 
before we say this is a clear--you said you wanted to make sure 
that everything was clear--that this is a clear problem, 
because 20 percent looks clear to me. I mean if I had $100 and 
lost 20 percent of it, I clearly lost $20.
    Mr. Hall. Okay. Maybe I might owe you an apology. I thought 
you were talking about the listing decision versus a decision 
that we need to do something about climate change. We need to 
do something about climate change starting yesterday. And it 
needs to be a serious effort to try and control greenhouse 
gases, which is probably the only thing we actually can 
control. If the Earth is tilting, if other things are 
happening, we can't control that, but we need to look at those 
things we can.
    Mr. Cleaver. Thank you.
    The Chairman. The gentleman's time has expired. The Chair 
recognizes the gentleman from New York, Mr. Hall.
    Mr. Hall of New York. Thank you, Mr. Chairman. Dr. Amstrup, 
when the ranking member asked you a question about bear 
population, he cut you off when you were still talking. I was 
curious if you were going to say anything further about recent 
years of population.
    Mr. Amstrup. Thank you, Congressman. I was going to add a 
couple of comments. So the trend from the time that the over 
exploitation was recognized in the late 1960s and early 1970s 
was a period of growth in many areas of the polar bear's range. 
And unfortunately we don't have data from all areas of the 
polar bear's distribution. But to the extent that we have data, 
it suggested a period of population growth. But that was in a 
period of stable environment, stable sea ice. And it has 
changed in recent years. We have seen the loss of ice that 
Congressman Cleaver was just referring to. And it is projected 
to continue to decline at a rapid rate. And in fact the 
declines that are predicted actually haven't been as fast as 
what we have actually observed. So it is clear that we are 
losing an increasing amount of polar bear habitat. The habitat 
losses in a couple of areas have already been shown to have 
negative effects on polar bear populations.
    Mr. Hall of New York. Can we quantify this or do we just 
know that as we lose habitat therefore we must be losing 
population?
    Mr. Amstrup. It has been quantified in Hudson Bay, in the 
Western Hudson Bay population, we have seen significant 
declines in survival and a 22 percent loss in population size.
    Mr. Hall of New York. I am sorry. I only have 5 minutes. I 
want to get to a couple other things. Thank you for filling in 
some more of your answer. I wanted to ask Mr. Luthi and Mr. 
Hall, I guess Mr. Luthi first, your charts and slides about 
consumption projecting this 24 percent demand increase by 2030, 
in my district we have held, I have held, my office has held 
hearings around the 19th District of New York on solar energy, 
on biofuels, on efficient--high efficiency building techniques 
and on hydrokinetic tidal power, which is being tested in the 
East River. And my constituents are coming out in overflow 
crowds to find out what they can do, to ask what they can do. 
And a lot of them are doing something, as I am, buying wind 
power every month in my home, burning 20 percent biodiesel in 
my home, heating oil, driving a hybrid vehicle, et cetera. And 
we just passed a substantial, it is not a perfect energy bill, 
but it does some things. It puts billions of new dollars into 
renewables and into conservation and carbon sequestration. And 
we are trying to lead, as I think the United States should try 
to lead, instead of following, the world in developing these 
new technologies. And there are regional cap-and-trade systems 
being set up in the Northeast and the Western States, as well 
as the European Union and other parts of the world.
    My question is whether your projection of the increase and 
your statement that no matter what we do, I think this is a 
quote, if I remember it, we will primarily rely upon coal, oil 
and natural gas in this projected time. Are you saying that, 
taking into account all these efforts that are being made on 
renewables and conservation?
    Mr. Luthi. Mr. Chairman, Congressman Hall, that slide comes 
from the Energy Information Agency, and that is what they are 
saying, that even with the increased emphasis on renewables, 
which I support absolutely. One of the reasons I am so thrilled 
to be Director of MMS is that we are starting an alternative 
energy program in offshore. But that is what that slide says. 
That is what they tell us, that no matter what we do it is not 
going to move fast enough to make a significant decrease 
through at least the next generation of coal, oil and gas.
    Mr. Hall of New York. Excuse me, I want to get through a 
couple more questions before it goes red. You are aware, I am 
sure, that California's electricity demand has been flat the 
last 20 years. It has gone up and down a little bit. It 
basically has been flat, even as the rest of the country has 
been on an increasing curve. And that is because we presume the 
regulatory climate in California being stricter, Air Resources 
Board and other regulations, that they have adapted to. And 
California is not a developing nation with no high technology. 
They have big screen TVs and video games and lots of industry. 
And so it seems to me that there are examples that we can look 
at to show that energy consumption can be limited without 
limiting our way of life and our productivity.
    So I don't understand--here is where you get into the 
question I think that Congressman Cleaver was mentioning about 
ideology. You can draw a graph that projects--I have seen 
graphs that project different outcomes depending on what 
policies this government adopts and what lifestyle. You know, 
do we choose to fight literally and give billions of our 
dollars and the lives of our men and women in uniform to take 
oil from unstable parts of the world or from dangerous and 
difficult areas like the Arctic and the Chukchi Sea, or do we 
look for these alternatives that are not as dangerous, but do 
require us to develop new technologies?
    Let me just ask you as a follow-up, because I know my time 
did just run out, I am curious, the lease total in your 
testimony, your written testimony, for the Chukchi Sea leases 
total $500 million. I am curious what the potential value of 
the oil and gas underneath those leases is, if you have 
estimated that?
    Mr. Luthi. Thank you. And I will have Regional Director 
John Goll deal with that technical question, because I think we 
do have a value. I know we have a value on the amount.
    Mr. Goll. The issue is until you inventory and we really 
find out what is there we don't know. Our scenario in the EIS 
is that it would take at least a field of a billion barrels to 
be able to produce. If you multiplied 1 billion by $100 oil you 
are talking $100 billion in today's market.
    Mr. Hall of New York. Which everybody expects will go up?
    Mr. Goll. Some people, yes.
    Mr. Hall of New York. So you are talking about a potential 
$100 billion yield?
    Mr. Goll. For one field, correct.
    Mr. Hall of New York. For a lease of $500 million?
    Mr. Goll. Well, we don't know what we would be getting from 
the sale with regard to the bids. We don't know that until the 
sale happens.
    Mr. Hall of New York. Well, some of us believe that these 
offshore leases and leases on public lands have been given away 
too cheaply to the oil companies. Is there any possibility that 
that has happened here?
    Mr. Luthi. Let me answer that one. Thank you. Mr. Chairman, 
Congressman Hall, the Minerals Management Service takes very 
seriously its responsibility about getting a fair market value 
for leases. I would invite you to come to our offices and see 
how we conduct our sales, particularly in the Gulf of Mexico 
where we have some more experience as well. After a lease sale 
is offered we actually go through a process once the bids are 
in and we evaluate whether that truly is a fair market, and 
there have been times we have turned those leases back.
    Mr. Hall of New York. Thank you, sir. I will take you up, 
and thank you for the invitation. I yield back.
    The Chairman. The gentleman's time has expired. This is a 
very, very, very important subject and I think this panel does 
deserve a second round of questions. And the Chair will 
recognize himself for that purpose.
    Dr. Amstrup, what would the impact of an oil spill be on 
the polar bear? You are America's leading expert on the polar 
bear. What is your judgment as to the impact of an oil spill on 
their habitat?
    Mr. Amstrup. The impact of an oil spill on polar bears 
would depend on the size of the spill, the currents, the winds 
that would distribute the oil after the spill. All of those 
things would have to be taken into account. And we don't have 
data on those things. But what we do have data on is that the 
effect of oil on polar bears is in a wild environment where 
they don't have access to strong medical veterinary care is 
likely to be fatal. So----
    The Chairman. So it could be a disaster?
    Mr. Amstrup. If a number of polar bears were affected, they 
would probably die. And to the extent that that number is 
large, it could be a big problem.
    The Chairman. Okay. Thank you, Dr. Amstrup, very much. Mr. 
Hall, would you mind if Secretary Kempthorne made a decision 
which postponed the decision on the leasing of the Chukchi 
leases until you made your decision?
    Mr. Hall. It wouldn't impact what I am doing at all. So it 
would be his decision, and whatever he wants to do is fine with 
me.
    The Chairman. Mr. Luthi, would you mind if Secretary 
Kempthorne made the decision that guaranteed that Mr. Hall's 
decision preceded the decision which you are tasked with 
making?
    Mr. Luthi. Thank you, Mr. Chairman. Again, as I have 
stated, I am confident that we have done all we needed to do.
    The Chairman. No, I didn't ask you that question. I asked 
would you mind, would you object if Secretary Kempthorne 
decided to allow Mr. Hall to make his decision first before you 
announced your decision?
    Mr. Luthi. Mr. Chairman, certainly the Secretary is my 
boss. That would be his decision.
    The Chairman. That would be his decision. And so you would 
accept that?
    Mr. Luthi. Yes, sir, if he should do so. If new information 
were available and he should make such a decision.
    The Chairman. Well, there is new information available, and 
that is that Mr. Hall is not going to be able to make his 
decision unless something happens, that once again keeps the 
order in place that had been decided upon, which is that Mr. 
Hall would decide first on the polar bear and the protections 
needed for the polar bear. Mr. Hall mentioned earlier that he 
was somewhat uncomfortable as a biologist trying to make a 
political decision. But the problem is just the opposite. We 
have political players confronting a scientific decision and 
the chief decision maker is the Secretary of the Interior, Mr. 
Kempthorne, who could turn this upside down decision right side 
up in a nanosecond if he wanted to. All he has to do is say let 
us use common sense, let us ensure that we understand that 
extinction is forever and we must make that decision first 
before we send the oil and gas industry out into the critical 
habitat to break up the polar bear ice.
    And so while I appreciate the testimony that both of you 
have presented to us today, in the end, if this is not fixed, 
it is Mr. Kempthorne who is to blame. I hope he understands the 
importance of his decision. I fear he does not, because this is 
now a looming threat that has not been dealt with by the 
Department of Interior. In the end, man can adapt but the bear 
cannot. We can act to prevent global warming, but the bear 
cannot. We can develop alternatives to oil, the bear cannot. 
When the ice is gone, man cheers about new commercial 
opportunities for oil and gas drilling, the bear starves and 
drowns.
    I have been hoping for common sense from the Department of 
Interior and from Secretary Kempthorne, but I have heard that 
all too common abandonment of common sense here today. We are 
going to have to redouble our efforts on this committee and in 
this Congress to head off the extinction of the polar bear. If 
this decision is delayed in making a determination as to 
drilling in the Chukchi Sea, we will still be years from the 
first barrel of oil ever coming from the ocean. But if we get 
this sequence wrong in terms of the protection of the polar 
bear, we will be accelerating the day when the polar bear will 
be extinct, and I do not think that that is something the 
American people want to see.
    So I thank both of you for being here today, and I call 
upon Secretary Kempthorne to make a decision that once again 
lets Mr. Hall make his decision before, Mr. Luthi, you make 
your decision. The ball is now in his court.
    Let me now turn and recognize the gentleman from Washington 
State, Mr. Inslee.
    Mr. Inslee. The more I listen to this, the more I 
understand that this is a case of the left hand not knowing 
what the right hand is doing before they act that could result 
in a suicide squeeze play for the polar bear. And this is a big 
deal. I come from the Seattle area where Dr. Cecelia Bitses, 
who has predicted the demise of the ice cap, where George 
Devoshe is, who has been studying the Arctic for 25 years now, 
and is starting for the first time to see star polar bears wash 
up on the beaches where he has been studying for 25 years, 
where he has seen very significant changes in migratory bird 
habits. So it is a big deal in the country I come from. And I 
want to focus on the fact that this left hand not knowing what 
the right hand is doing is very important. It is clear, isn't 
it, Mr. Luthi, that if you do this leasing and then there is a 
designation of a status by the agency, it will be too late for 
you to do what the agency may want you to do, isn't that right?
    Mr. Luthi. Mr. Chairman, Representative Inslee, taking some 
liberty with what you mean, should we go ahead with the leasing 
sale and offer the leases for sale and some are purchased, then 
the decision is made by the Department on the status of the 
bear, we have lost something is what I believe you are 
indicating, correct?
    Mr. Inslee. You have lost the ability to do what the 
Federal Government is charged by the taxpayers to do, which is 
to protect the polar bear. Now, if they make the designation 
before this they might compel you to reduce the sale by 10 
percent, for instance, and you could reduce the sale by 10 
percent geographically. But after you issue these leases and 
then there is a designation and then the agency says, wait, we 
have got to reduce this by 10 percent to have an acceptable 
risk to the bear, then isn't it true that it is too late for 
you to go back and terminate the leases?
    Mr. Luthi. Mr. Chairman, Congressman Inslee, I disagree, 
one, with the left hand doesn't know what the right hand is 
doing.
    Mr. Inslee. Excuse me. I want you to answer my question. 
You may not like my metaphors, but I want an answer to my 
question. If they designate the bear and you have already 
issued the leases, you cannot terminate the leases legally, can 
you?
    Mr. Luthi. We cannot terminate the leases.
    Mr. Inslee. Thank you.
    Mr. Luthi. But we are able to consult on the next stage, 
which is the actual leasing and sale.
    Mr. Inslee. I want to make it absolutely clear so that you 
understand. If you go forward on the course you are at and you 
issue these leases and then the Federal agency that is vested 
with the legal authority to protect the bear says that those 
leases will endanger the bear at an unacceptable level to the 
taxpayer, you will have lost the ability to stop that activity, 
isn't that correct? Yes or no. I think that is a yes or no 
answer.
    Mr. Luthi. I will not answer yes or no because it is an 
incomplete answer.
    Mr. Inslee. Well, you have certainly lost the ability to 
prevent drilling in certain areas, isn't that correct?
    Mr. Luthi. We have not lost the ability to protect the bear 
under the Marine Mammal Protection Act at this time.
    Mr. Inslee. I know you don't like the answer to this 
question, but I think you answered it. Once you issue the 
leases, it is too late to go back and terminate them, you will 
not have the ability to take back the leases that the other 
Federal agency have told you that it would have been unduly 
dangerous to the bear, isn't that correct?
    Mr. Luthi. Correct. They have the ability to condition 
those leases, however, to protect the bear under the Endangered 
Species Act.
    Mr. Inslee. Thank you. I think you have answered my 
question. Now, the other thing that was a little soft spoken 
was this 33 to 51 percent chance. I want to make sure I 
understand this. I am going to read you the paragraph on page 
E-7--excuse me, ES-4 of your document: Over the life of the 
hypothetical development and production that could follow from 
the lease sale, other effects are possible for events, such as 
a large accidental oil spill or natural gas release. We 
estimate the chance of a large spill greater than or equal to 
1,000 BBL occurring and entering offshore waters is within a 
range of 33-51 percent. That is a direct quote.
    Now, I have heard some suggest, well, no, that is really 
not, considering all the whiz bang technology we have. But I 
can't believe that an agency of the Federal Government would 
issue this document and say there is a 33 to 51 percent chance 
of a mortal oil spill, not taking into consideration existing 
technology, not taking into consideration existing geological 
information, not taking into consideration existing information 
of the bear. And Mr. Luthi, it is true, isn't it, that your 
agency reached a conclusion that there is a 33 to 51 percent 
chance of these type of spills considering existing technology?
    Mr. Luthi. I will ask Mr. Goll to respond. He seems to want 
to be able to tackle this one. Thank you.
    Mr. Goll. We update the statistics with regard to the 
probability on a periodic basis, and then that rolls in new 
technology. So the data there, again, reflected what the past 
history has been.
    Mr. Inslee. I am sorry, but this should be really, really 
simple. You used the best information about the technology you 
have that is available to you when you reached the assessment, 
isn't that correct? You didn't just ignore what you knew, did 
you?
    Mr. Goll. We used the best available information at the 
time, correct.
    Mr. Inslee. Thank you.
    The Chairman. The gentleman's time has expired. Do other 
members seek recognition for the purpose of asking questions? I 
don't see any members who do. We thank you all for testifying 
today. This is the beginning of what I think is going to be one 
of the most historic environmental decisions in our country's 
history, and this committee intends on being a part of that 
process from this moment forward. Thank you.
    We have a very distinguished second panel as well. And we 
will ask each of them to come up to the table.
    Ms. Kassie Siegel is the Director of Climate, Air and 
Energy Program for the Center For Biological Diversity. She is 
focusing her work on the impacts of heat trapping pollution and 
protection of plants and animals threatened by global warming. 
She is one of the leading experts on the polar bear and the 
Endangered Species Act. We welcome you, Ms. Siegel. Whenever 
you are ready please begin.

STATEMENTS OF KASSIE SIEGEL, DIRECTOR, CLIMATE, AIR AND ENERGY 
   PROGRAM, CENTER FOR BIOLOGICAL DIVERSITY; JAMIE RAPPAPORT 
  CLARK, EXECUTIVE VICE PRESIDENT, DEFENDERS OF WILDLIFE; AND 
   DEBORAH WILLIAMS, PRESIDENT, ALASKA CONSERVATION SOLUTIONS

                   STATEMENT OF KASSIE SIEGEL

    Ms. Siegel. Thank you, Mr. Chairman and members of the 
committee, for the opportunity to testify, and thank you so 
much for your leadership on energy independence and global 
warming. I have some slides which I think will come up in a 
moment. And as you know, the polar bear is completely dependent 
on sea ice for all of its essential behaviors, including travel 
and mating and hunting its primary prey of ice dependent seals. 
Polar bears can't hunt seals from land. And so tied to the ice 
are they that some mother polar bears even give birth to their 
clubs in snow dens like this one we can see, if we can advance 
the slides.
    Advance, please, just to there. Thank you.
    The future of the polar bear in a rapidly warming Arctic is 
grim.
    Next slide. Polar bears are drowning.
    Next slide. Resorting to cannibalism when they don't have 
access to their usual food sources and starving.
    Next slide, please. This photo was taken in September 2007 
in northern Quebec, Canada. This bear is in the final stages of 
starvation. And while we can't say for sure that this bear died 
as a direct result of global warming, we know that global 
warming is and will continue to increase the number of bears 
that suffer this fate. But we also know that it is not too late 
to do something about it. And that is why the Center for 
Biological Diversity submitted the petition to list the polar 
bear in February 2005. The listing process has already 
benefited the species by raising awareness of its plight and 
leading to new information which we would not otherwise have 
had. Most importantly, the USGS completed a study on the future 
status of polar bears.
    Next slide. To do this they divided the world's polar bear 
populations into four ecological regions shown here. And they 
modeled the future population size of polar bears based on the 
IPCC's A1B scenario, often called the business as usual 
emissions scenario. The results of the USGS study are 
profoundly disturbing. Under business as usual emissions polar 
bears will be completely gone from the divergent ice ecoregion 
shown here in the purple and the seasonable ice ecoregion shown 
here in the green by 2050. The good news is that polar bears 
may hang on a bit longer here in the convergent ice ecoregion 
in blue, and the archipelago region in orange. But the risk of 
extinction by the end of the century in these areas is still 
unacceptably large, over 75 percent in the blue area and over 
40 percent in the orange area. Most disturbingly, the USGS 
study may underestimate the risk to polar bears. This is 
because the Arctic ice is melting faster than forecast by any 
of the world's leading climate models.
    Next slide, please. You have seen the Arctic ice pack in 
September 1979.
    Next slide. And again in 2007.
    This next slide, please, shows graphically actual observed 
minimum sea ice extent in the heavy red line compared to model 
projections in the dash colored lines.
    Next slide please. Yes, good. You can see that not one 
single model projected the record new minimum low sea ice 
extent in 2007 and, further, that there was less ice in the 
Arctic this past year than more than half of the models 
projected for 2050.
    The situation in the Arctic has reached a critical 
threshold, but there is still time to save the polar bear if we 
act immediately. A critically important first step is to list 
the polar bear under the Endangered Species Act.
    Next slide. Our Nation's strongest and most successful law 
has a critically important role to play in saving this species. 
And we also need to rapidly reduce our greenhouse gas 
emissions, including of course carbon dioxide, but also other 
pollutants, including methane and black carbon that have 
shorter atmospheric lifetimes for a very high warming impact on 
the Arctic. And we also need to protect the Arctic in the 
species most at risk from further direct impacts such as oil 
and gas activities and the oil spills that come with them. But 
right now the opposite is happening, and the only thing that is 
keeping pace with the melting of the sea ice is the breakneck 
speed with which the Department of Interior is rushing to 
improve new oil and gas development in polar bear habitat. And 
now the Fish and Wildlife Service has illegally delayed the 
polar bear listing as well. It has been over 3 years since we 
submitted the petition to list the polar bear and we have 
already had to go to court once. The polar bear shouldn't have 
to wait any longer.
    While there are many reasons the Chukchi lease sale 193 
should not proceed, at a minimum this sale and other oil and 
gas activities in polar bear habitat should not go forward 
until the polar bear is listed, until its critical habitat is 
designated, until a recovery plan is in place and then only if 
these agencies can affirmatively demonstrate that these 
activities would truly be compatible with polar bear 
conservation. Chukchi Sale 193 cannot possibly meet this 
standard and therefore it must be stopped.
    Thank you very much.
    [The prepared statement of Ms. Siegel follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you, Ms. Siegel, very much.
    Our second witness, Deborah Williams, is the President of 
the Alaska Conservation Solutions. She has devoted 25 years to 
conservation and sustainable community issues in Alaska. And 
for her work Ms. Williams received a presidential appointment 
as Special Assistant to the Secretary of Interior for Alaska.
    We thank you and whenever you are ready, please begin.

                 STATEMENT OF DEBORAH WILLIAMS

    Ms. Williams. Mr. Chairman and members of the committee, 
polar bears are indeed on thin ice. Thank you so much for 
holding this critical hearing to help focus the Nation's 
attention on the very serious plight of our country's polar 
bears, whose survival is jeopardized by global warming and 
proposed offshore lease sales.
    Polar bears are bellwethers for the Nation and the world. 
Their fate reflects our fate. The good news is that there is 
still time to act, but unquestionably the time to act is now.
    There are three actions that we can and must take to 
protect polar bears. All of these actions will be beneficial to 
our Nation's future. First, as has been well described, we must 
postpone the Chukchi lease sale until adequate information 
regarding polar bears and other key species is available, and 
certainly we cannot hold this lease sale until polar bears are 
listed under the Endangered Species Act and their critical 
habitat designated.
    Secondly, we must provide critically needed funding for 
polar bear research and management, especially for the Chukchi 
population.
    And third, we must of course pass comprehensive legislation 
substantially reducing greenhouse gas emissions.
    Next slide. Alaska has warmed at a rate four times faster 
than the rest of the world, as shown in that previous slide. 
There we go. As shown in red. And in fact the Arctic Ocean is 
the warmest ever recorded in some locations, 5 degrees 
centigrade above normal.
    Next slide. Sea ice has reduced dramatically in Arctic 
water. Especially, committee members, you can see where the 
Chukchi Sea is. That is where the dramatic reduction has 
occurred. As Dr. Steven Amstrup has stated, our results have 
demonstrated that as the sea ice goes so goes the polar bear.
    Next slide. As evidenced by cannibalism, and these are 
slides of the brutal bloody fingerprints of global warming as 
it relates to polar bears, as evidenced by cannibalism, 
starvation, drownings, decreased cub survival, small skull size 
and more, the evidence is compelling: Alaska polar bears are 
suffering from the effects of global warming right now. Given 
the above it doesn't make sense to add a substantial additional 
risk to the survival of polar bears from the Chukchi lease sale 
that is scheduled to take place in less than a month. 
Absolutely not, the sale must be postponed.
    Next slide. The Chukchi is an amazing part of our national 
heritage and home to the Chukchi bearing population of polar 
bears. Overall, this extraordinary sea nourishes humans and a 
myriad of other very valuable species. This slide shows the 
vast extent of the proposed Chukchi lease sale, which is in 
red, and how it overlaps with the American managed population 
of the Chukchi polar bears. Stunning. Almost all of the 
critical polar bear locational sites is covered by this Chukchi 
lease sale.
    Now, three critical points. We do not know enough about the 
Chukchi Sea population of polar bears or the biology of the 
Chukchi Sea to make an informed decision about this sale. We 
simply do not know how many polar bears there are in the 
Chukchi Sea. We don't know where they are distributed. Every 
Federal agency admits one of the following; that a reliable 
population estimate for the Chukchi Sea currently does not 
exist, quote, unquote, that existing population estimates, 
quote, are to be considered of little value for management, 
unquote, and that the population, quote, is already declining. 
In addition, the polar bear's numerous valuable species of 
whales, walruses, seals, birds and fish exist in the Chukchi 
Sea.
    But this is, next slide, what I think, and the next slide 
is one of the most important statements made by a Federal 
agency, and that is looking at the Chukchi area as a whole. The 
National Marine Fishery Service has said, quote, the 
information necessary to properly assess the biological effects 
of sale 193 is not available, closed quote. Congress would 
never make a decision with this little information. It is 
irresponsible. This kind of ignorance is not bliss to polar 
bears or the other denizens of the Chukchi, especially when 
this ignorance is serving as the basis for proceeding with a 
very risky lease sale.
    Next slide. We do, however, know that there have been major 
impacts from oil development in Alaska. For example, there is 
an average of over 500 spills from the North Slope oil industry 
each year. And as the Exxon Valdez oil spill underscores, human 
error can cause massive devastating oil spill damage. Oil 
spills are particularly a serious problem for the Chukchi, as 
Dr. Amstrup stated repeatedly. Oil kills polar bears. And it is 
particularly impossible to clean up oil when it is in broken 
ice, and that is what the Chukchi has. This is a lethal 
combination for polar bears.
    Next slide. As has been repeatedly stated, there is a 33 to 
51 percent chance, or an average of 40 percent chance of an oil 
spill. So bottom line what does this mean? As you have stated, 
Mr. Chairman, even MMS says that, quote, due to the magnitude 
of potential mortality as a result of an oil spill sale 193 
could result in significant adverse impact to polar bears. As 
Special Assistant, I supported several oil and gas lease sales, 
but I do not support leasing in Chukchi at this time. It is 
irresponsible. And, Mr. Chairman, there are better 
alternatives.
    Next slide. That wind farm is a cotebu which borders the 
Chukchi Sea. We have tremendous renewable energy in this area.
    Next slide. Before closing, I do want to emphasize the need 
for Congress to fund necessary research and management efforts 
for the protection of the Chukchi and our Nation's other 
population of polar bears. And of course the final comment is 
first and foremost in addition to these actions we must 
dramatically reduce our emissions.
    Last statement, we are a compassionate country filled with 
innovation and renewable energy resources. We do not need to 
write a death sentence for polar bears from premature ill-
advised offshore leasing and recklessly high emissions of 
greenhouse gases. We can do better. And for the sake of polar 
bears, ourselves, and future generations, we must.
    [The prepared statement of Ms. Williams follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. We thank you so much, Ms. Williams. And our 
final witness is Ms. Jamie Rappaport Clark, the Executive Vice 
President of Defenders of Wildlife. She has spent 20 years in 
government service, primarily with the U.S. Fish and Wildlife 
Service, where she served as Director from 1997 to 2001. We 
thank you so much for being here. Whenever you are ready please 
begin.

               STATEMENT OF JAMIE RAPPAPORT CLARK

    Ms. Clark. Thank you. Good morning, Mr. Chairman and 
members of the select committee. Thank you for inviting me to 
testify today.
    This hearing today highlights the conflicted and misguided 
priorities of this current administration. On the one hand, the 
Bush administration continues to drag its feet protecting polar 
bears under the Endangered Species Act. On the other hand, it 
is rushing forward with its proposal to sell oil and gas leases 
under nearly 30 million acres in the Chukchi Sea in the heart 
of critically important polar bear habitat. At the very least 
this creates an appearance of once again allowing politics to 
trump science and endangered species decision making.
    As the Chair mentioned, as a long-term career biologist 
with the Federal Government before becoming Director of the 
Fish and Wildlife Service, I know firsthand the challenges 
faced by the dedicated professionals implementing the 
Endangered Species Act. And consequently I am certainly 
reluctant to criticize them; however, I cannot ignore what this 
administration's political appointees have done to the 
administration of ESA and our other conservation laws. This 
administration has repeatedly engaged in political manipulation 
of science and conservation.
    The Interior Department's own Inspector General exposed 
cases of inappropriate political interference with the 
professional assessments and recommendations of the 
Department's biologists, scientists and wildlife managers in 
endangered species listings and critical habitat 
determinations, decisions which the Department has now been 
forced to revisit at a significant cost to taxpayers.
    Thus, when the administration delays listing while at the 
same time promoting new oil and gas leasing in critical polar 
bear habitat, it is reasonable, I believe, to suspect that it 
is once again putting political interest before conservation.
    There are numerous factors that support listing polar bears 
under the Endangered Species Act. Above all known threats, 
however, is the unequivocal loss of polar bear habitat due to 
global warming. The polar bear's Arctic sea ice is literally 
melting away, as my colleagues just demonstrated. Interior's 
own scientists have concluded that if we continue business as 
usual there will be no wild polar bears left in the United 
States by 2050. Clearly, there is no scientific rationale for 
further delay. Polar bears should be listed immediately.
    Once the Interior Department proposed to list polar bears 
the Minerals Management Service and Fish and Wildlife Service 
were obligated by law to determine whether oil and gas leasing 
in the Chukchi Sea is likely to jeopardize polar bears and, if 
so, to confer on the leasing and its impact. After polar bears 
are listed the agencies must consult under the ESA to ensure 
that the listing is not likely to jeopardize their continued 
existence. It would fly in the face of the precautionary 
approach to the Endangered Species Act if the Interior 
Department were able to take advantage of its own delay, its 
own delay in making a listing decision in order to expedite oil 
and gas leasing in the Chukchi Sea without fully evaluating the 
potential harm to polar bears. At a minimum the administration 
should delay any leasing in the Chukchi or any other polar bear 
habitat until the listing decision has been made and 
consultation requirements are fully met.
    Ms. Clark. The potential harm to polar bears from oil and 
gas leasing in the Chukchi Sea is substantial. Such development 
is highly risky and detrimental to polar bears and other Arctic 
wildlife. And most disturbing, there is no technology to 
respond to and clean up spilled oil at sea in conditions that 
are prevalent in the Arctic. The impact of promoting additional 
burning of fossil fuels will add further pressure to an already 
stressed polar bear population.
    We cannot continue business as usual. The plight of the 
polar bears is a warning to all of us that we need to act now 
to reduce our use of fossil fuels.
    In conclusion, the polar bears--the Bush administration 
should move forward immediately to list the polar bear and 
fully comply with the Endangered Species Act. The 
administration should also withdraw the proposed oil and gas 
leases in the Chukchi Sea and should refrain from any further 
leasing in polar bear habitat until adequate measures are in 
place to protect the polar bears in their habitat from the 
harmful effects of such development.
    Most importantly, the administration should stop their foot 
dragging and work with the Congress to develop an energy policy 
that would reduce our use of fossil fuels and our production of 
greenhouse gas pollution. If we act now there is hope for the 
polar bears, the Arctic ecosystem, ourselves and our children.
    Thank you, Mr. Chairman for the opportunity to testify and 
I am happy to respond to questions.
    [The statement of Ms. Clark follows:]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    
    The Chairman. Thank you. The Chair recognizes himself for a 
round of questions.
    Ms. Clark, you support delaying the decision on the leasing 
in the Chukchi Sea until there is a decision made on the 
listing of the polar bear?
    Ms. Clark. Absolutely, Mr. Chairman, it just makes common 
sense.
    The Chairman. Now, when you had the job of running the Fish 
and Wildlife Service, would you have made a recommendation to 
the Secretary of Interior to make that decision?
    Ms. Clark. Unequivocally, yes.
    The Chairman. You would have. And would it be appropriate 
for you to make a recommendation to the Secretary?
    Ms. Clark. Yes.
    The Chairman. And so Secretary Babbitt did welcome those 
kinds of recommendations?
    Ms. Clark. Yes, he did.
    The Chairman. Okay, great. Thank you, that is helpful, 
because again, Secretary Kempthorne obviously has a huge 
decision to make here. Does he have it within his power to 
rectify this problem?
    Ms. Clark. Yes, he does, Mr. Chairman. On the one hand he 
has an obvious statutory responsibility to make a decision 
based on the best science available, whether or not the polar 
bear deserves the protection of the Endangered Species Act. On 
the other hand, he has a somewhat discretionary decision on 
timing of oil and gas leasing in the Chukchi, very different 
decisions.
    The Chairman. But decisions within his----
    Ms. Clark. Both within his purview, absolutely.
    The Chairman. I think that is important for the public to 
know.
    Ms. Clark. Yes.
    The Chairman. Ms. Williams, you are testifying to the fact 
that there are still gaps of knowledge that exist----
    Ms. Williams. It is virtually----
    The Chairman. Between what is going on in the ice melt and 
its impact on polar bears. Could you expand on that?
    Ms. Williams. Yes. The gaps in knowledge represent a 
virtual black hole. As I had mentioned, we don't know how many 
polar bears there are there. We don't know their condition, we 
don't know their distribution. We don't know how the recent 
melting which you saw so dramatic in this area is affecting 
them. We do not know other than we believe from previous 
research that a spill would be lethal, but we don't know the 
precise--traveling of that spill and so forth.
    And so we do know, though, that we have no technology to 
clean up oil in broken ice that has been proven, we do know it 
is lethal. And so what we know all speaks in favor very much of 
your legislation, what we don't know also speaks in favor of 
your legislation.
    The Chairman. We thank you, Ms. Williams.
    Ms. Siegel, you heard what Ms. Clark and Ms. Williams said 
both about the decision that Secretary Kempthorne can make in 
those gaps in knowledge that exist. Would you like to expand 
upon either one of those thoughts?
    Ms. Siegel. Thank you, Mr. Chairman. I believe that there 
are many reasons that Chukchi Sea lease sale 193 should not go 
forward, but the fact that the polar bear has not yet been 
listed and that the process has now dragged on for nearly 3 
years when it was supposed to be completed within 2 years is 
reason enough to halt this sale.
    The Chairman. I think that is absolutely all we really have 
to know, that there is a year delay already in protection of 
the polar bear, but no time can be lost in the leasing of oil 
and gas drilling in the area where the polar bear lives and has 
to have a habitat if it is to survive. So that is the equation 
and we have to ensure that the Secretary of Interior makes the 
right decision or the Congress makes it for him.
    Ms. Clark. Mr. Markey, if I could add, I think, in 
listening to the testimony one of the most significant 
revelations as I was listening to it relates to what the 
decision is that has to be made. The decision by the Secretary 
and the Director regarding the polar bear needs to be made 
based on the best scientific information available. They seem 
to be trying to solve the cause of endangerment before making 
the call that its endangered. The Endangered Species Act does 
not call for that. It calls for a decision to be made on the 
biological status of the species at this time and all the kind 
of initiatives, innovations, other opportunities governing 
recovery will take over after that, but they are not going to 
solve the problem without declaring it.
    The Chairman. Okay, thank you, Ms. Clark, that is very 
helpful. I think I will include that in my--in the language 
which I use to accompany the legislation as I am introducing 
it. I think that is very helpful. My time has expired.
    Let me now turn and recognize the gentleman from Missouri. 
The gentleman is the last questioner I believe, unless another 
member returns. So I am going to recognize the gentleman and 
ask him then to adjourn the hearing if he would or if another 
member arrives, to please give the gavel to him. So with that, 
I recognize the gentleman from Missouri.
    Mr. Cleaver. Thank you, Mr. Chairman. It does not happen 
often that I am in full agreement with our witnesses, but I am 
today. But because I didn't get clear answers with the previous 
panel. I am interested, Ms. Clark, if you could give us a 
picture of how the machinery of the U.S. Fish and Wildlife 
Service actually functions with regard to the professional 
staff and then those who are appointed. My question that I 
asked earlier, which may be answered in the next millennium, is 
I was interested in whether or not there is political 
interference. And number 1, is it the normal process that the 
professional staff, the experts, the scientists collect 
information, make recommendations then to the Director and then 
those recommendations are acted on; is that the normal process?
    Ms. Clark. I can share with you how it used to work. I was 
a long time endangered species biologist before accepting the 
Presidential appointment as director. During that time, you are 
right, in that as director, I relied very heavily on the 
professional staff. They are highly competent, incredibly 
dedicated and very capable. And they would conduct all the 
science and all the kind of analytics. They are closest to the 
ground, closest to the species and certainly the most 
knowledgeable about the scientific effects.
    They would then make a recommendation that would be moved 
through the regional office and into Washington. The 
responsibility of those of us in Washington were to review the 
science and ensure that it complied with the policy and 
statutory requirements of, in this case, the Endangered Species 
Act.
    While certainly there is the opportunity for the policy 
makers political appointees to come up with a result with a 
different conclusion than the recommendation of the scientists 
and biologists, it was absolutely unheard of that the policy 
makers would change the underlying science.
    Ms. Siegel. Congressman Cleaver, if I might elaborate a 
little bit. Over the past seven years, the Bush administration 
has essentially shutdown the listing program for Endangered 
Species. This administration has listed fewer species than any 
administration in history and it is not because of a lack of 
worthy candidates.
    Overall, there are 279 species that are official candidates 
and have been waiting an average of 19 years for protection. 
Secretary Kempthorne has gone 617 days without listing a single 
species under the Endangered Species Act. The second longest 
delay in history was in 1981 when then Secretary of the 
Interior, James Watt, went 182 days without listing a species. 
In that situation, Congress quickly amended the Act to include 
the strict statutory deadlines for listing species that we now 
have.
    We have repeatedly seen political appointees in this 
administration use delays such as the current delay with the 
polar bear listing to interfere with the conclusions of service 
biologists. One example from a similar situation concerns a 
species called the California tiger salamander. The service was 
under a court order to issue a final listing decision for this 
species and asked the court for more time. This time was then 
used by the political appointee to overrule the judgment of 
agency scientists. The court later ruled that a request or a 
delay had been used to illegally reduce protection for that 
species.
    Under investigation by Congress and the Inspector General, 
the service has admitted to political interference in seven 
listing decisions which involved former Assistant Secretary 
Julie MacDonald, but has it not actually committed to 
correcting this interference. And the Center For Biological 
Diversity has found evidence of political interference an 
additional 55 Endangered Species Act listing decisions that the 
agency has refused to address. And this is why we are so 
concerned with the current delay in the listing decision for 
the polar bear.
    Mr. Cleaver. I think there is unanimity, at least on this 
side, that we do need to act and that the delay is 
unfortunately politically motivated. We have seen reports from 
staff bleached in other areas of our government over the past 
few years. And so it will not be a shock to see it happen here.
    Ms. Williams, my final question. How far can polar bears 
swim?
    Ms. Williams. They can swim long distances. Part of it 
depends on the conditions, but it is important to note that 
when polar bears swim, they use a lot of energy. They are 
really designed to swim from iceberg to iceberg or short 
distances where there is no ice. They are not designed to swim 
500 miles, which some of the projections show the ice will be 
500 miles offshore, and polar bears will have the great 
challenge of swimming 500 miles from the edge of the ice to 
come on land to den.
    What we found, and it was actually MMS scientists have 
found that with diminished ice several years ago, there was a 
storm and they found more and more polar bears in the water as 
opposed on ice, because there is less ice. And it was those MMS 
scientists who found the drowned polar bears. And polar bears 
were drowned after that storm because they didn't have enough 
ice to rest on and to seek refuge on.
    So polar bears can drown when they have too far to swim. 
They can use too much energy when they have too far to swim, it 
can affect their denning activities and other activities. So 
polar bears again were designed to be on ice not swimming in 
water except for short distances. So the more the ice retreats, 
the worse it is for polar bears. And of course, polar bears 
swimming through oil, as we know from a study that was done by 
a Canadian scientists, is lethal.
    Mr. Cleaver. I am going to turn this over to Mr. Inslee. I 
was trying to make a point earlier and perhaps I didn't make it 
as--yes, I did, it was clear. When we talk about cleanup of an 
oil spill, we are not talking about reversing the impact 
completely of that oil spill. And I was trying to point out 
that after the USS Arizona was damaged and went under, that 60 
years later, it is still leaking oil. If you went there today, 
you would see oil bubbling up.
    Ms. Williams. Mr. Cleaver, if I may respond to that, one of 
my jobs when I was special assistant was to serve on the Exxon 
Valdez trustee council. And as you know, the Exxon Valdez oil 
spill occurred almost 19 years ago. There is still dramatic oil 
residues and release from that spill today.
    We also know from Exxon Valdez the spill cleanup process 
failed. When you combine what we see from spills throughout the 
Nation in the world and the failure of spill cleanup to begin 
with, the long residual life of oil spills. And when you 
combine that with the Chukchi Sea, which is the worst possible 
conditions for even trying to spill ice. Imagine that you just 
have this big tub filled with ice cubes and you pour oil in 
there, how are you going to get the oil out between the ice 
cubes?
    Various demonstration projects have been tried and they 
have failed, and even under the best of circumstances, to clean 
up that oil in those conditions. So we have a triple-whammy 
condition in the Chukchi Sea, it could not be worse for polar 
bears with respect to spills. We have established that the 
likelihood of a major oil spill is 33 to 51 percent.
    Mr. Cleaver. Thank you very kindly. Mr. Inslee.
    Mr. Inslee. I thank you. Before I forget, I want to enter 
into the record the environmental impact statement that I was 
referring to in my previous questions.
    This planned sequence of events to allow this leasing 
before this designation makes me harken back. I am real glad 
that we did not allow DDT before we had the designation of the 
bald eagle. I saw four of them sitting on pylons outside of 
where I live the other day and I think it would be a similar 
type of tragedy, so I appreciate your working here.
    I want to ask you about hunting issues. Hunting of polar 
bears now is prohibited by the Marine Mammal Protection Act, 
but it is allowed for people who go out and hunt in Canada and 
bring them back as trophies. I am told there is some 
significant decline going on in the Hudson Bay polar bear 
population. If there is a designation, how would it effect that 
loophole? Could the Agency close that loophole or would it 
require statutory action?
    Ms. Siegel. Thank you, Congressman Inslee. When a species 
is listed as threatened or endangered under the Endangered 
Species Act, it is automatically designated as depleted under 
the Marine Mammal Protection Act. Under normal circumstances, 
species that are designated and depleted under the Marine 
Mammal Protection Act are not eligible for the approval of 
sport-hunted trophies from Canada. So it is possible that if 
the polar bear is listed under the Endangered Species Act, that 
importation of sport hunted polar bear trophies from Canada 
will no longer be possible.
    I would note, however, that Director Hall at the press 
conference last week when he announced a delay on the listing 
decision did also note that it might be possible to apply for 
an exemption from this process from the Marine Mammal 
Commission.
    Mr. Inslee. And what is the science to date about the 
decline of the Hudson species, whether it is related to global 
warming or hunting or both or other reasons? Can you give us 
any insight on that?
    Ms. Siegel. Scientists have attributed the decline of the 
western Hudson Bay population to global warming and also to the 
harvest of approximately 40 bears each year from that 
population, which at some point during this kind of species 
ceased to be sustainable.
    Mr. Inslee. Great. Going back to this listing decision and 
how it affects the leasing. We have talked a lot about the 
danger of oil spills and the 33 to 51 percent likelihood of a 
spill and the potential mortality. But there is another huge 
sort of elephant in the room, if you will, and that is the 
CO<INF>2</INF> associated with burning the oil that we drill. 
And that is really the ultimate potential mortality of the 
species of CO<INF>2</INF> coming out of the oil we burn and we 
drill, going in the atmosphere, heating the atmosphere, melting 
the ice cap. By the way, someone said it is only a 20 percent 
reduction, that is way, way off. Could you explain why that is 
way off, Ms. Williams?
    Ms. Williams. That is way off. Indeed the 20 percent is 
incorrect. The reduction that we have experienced is 10 percent 
per year since the 1970s. And essentially the minimum that we 
experienced last summer in 2007 was 23 percent less than the 
previous minimum, but it was essentially 40 percent less than 
the average between the 70s and currently, but it has been 10 
percent per year since the 1970s.
    Mr. Inslee. Do I understand there is both a reduction in 
the area covered to the extent that in a very short period of 
time, either a decade or shortly thereafter, there will be no 
summer ice by area, but there is also about a 40 percent 
reduction on the average depth of the ice, it is pretty much 
across its range.
    Ms. Williams. That is correct, Mr. Inslee. And one thing 
useful, I think the committee members know, but perhaps for the 
public to understand better, right now the average depth of the 
Arctic ice cap is only 3 feet. If you walked up to an average 
person and said, how thick do you think the Arctic ice cap is 
over the North Pole? They would say 100 feet, 200 feet, right? 
It is only 3 feet. And that has diminished by 40 to 50 percent 
in the last several decades. And so we are talking about a very 
fragile habitat, ice that is on average only 3 feet thick. That 
is why global warming has had such a profound effect on it.
    Mr. Inslee. So if the polar bear is listed, would it be 
appropriate in any leasing decision, including this one, to 
consider the CO<INF>2</INF> emissions and their capability to 
further this acceleration and the decline of the Arctic sea 
ice?
    Ms. Clark. Section 7, the consultation provision that the 
administration seemingly is trying to escape, would require the 
evaluation, the analysis of not only the direct and indirect 
effects of the proposed actions, but the interrelated and 
interdependent effects. And so in that light, there would be a 
much more comprehensive review and analysis of the impacts of 
the threats affecting the polar bears than would ever occur 
under the Marine Mammal Protection Act or any inner agency 
conferencing under a proposed species listing.
    Mr. Inslee. Very well. Our time has expired and I want to 
thank the witnesses, all of the witness, both panels, it has 
been very educational. We are, at least many of us on this 
panel, are hopeful that this will help inspire the 
administration and the Secretary to take another look at this 
issue. And I will be joining Mr. Markey in introducing 
legislation today, should that not take place by revisiting by 
the administration to do this by legislature or otherwise. And 
I have, of course, been joined by 2 dozen of my colleagues in a 
letter to the Secretary urging him to revisit this, what we 
believe to be a very ill-considered decision. With that, having 
received the gavel, we will consider this hearing concluded.
    [Whereupon, at 11:53 a.m., the committee was adjourned.]

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


</pre></body></html>
